No.
IN THE
SUPREME COURT OF THE UNITED STATES

In re WILLIAM M. WINDSOR,
Petitioner

William M. Windsor, Petitioner
V.

Sean D. Fleming, Respondent
ON PETITION FOR WRIT OF MANDAMUS TO
Tenth Court of Appeals of the State of Texas

APPENDIX
William M. Windsor
Pro Se
100 East Oak Terrace Drive Unit B3
Leesburg, Florida 34748
billwindsorl@outlook.com
352-577-9988

1

Appendix
A

IN THE
TENTH COURT OF APPEALS
No. 10-14-00392-CV
WILLIAM M. WINDSOR,
Appellant
v.
SEAN D. FLEMING,
Appellee

From the 378th District Court
Ellis County, Texas
Trial Court No. 88611-A
MEMORANDUM OPINION
William M. Windsor, who represented himself in the underlying trial court
proceedings and is also representing himself in this appellate proceeding, appeals the
trial court's December 18, 2014 "Order Granting Defendant Sean D. Fleming's AntiSLAPP Motion to Dismiss and Judgment Awarding Costs, Expenses, Attorney's Fees and
Sanctions in Favor of Sean Fleming Against William Windsor." We will affirm.

AmrJOiX A

Background
•

December 26, 2013 - Windsor filed his original petition against Fleming

and several other defendants. The case was assigned to the 40th District Court of Ellis
County. The presiding judge of the 40th District Court is the Honorable Bob Carroll.
•

January 15,2014 - Windsor filed his first amended petition against Fleming

and several other defendants, alleging as follows: Windsor founded an organization
called "Lawless America" and developed a website for it. Windsor "publishes an online
magazine, produces and hosts a radio show, and has been producing and directing a
documentary film about injustices of various types." In December 2012, Windsor became
aware of Joeyisahttlekid.blogspot.com. JoeyisaHttlekid.blogspot.com was originally "an
online gathering place" for a group of people who disliked Joey Dauben.1 The group
turned its attention to Windsor, however, after members of the group learned that
Dauben's girlfriend and family had approached Windsor to "do some filming" about
Dauben's story. Members of the group, including Fleming and the other defendants,
began posting alleged defamatory content about Windsor, Windsor claimed that the
actions of Fleming and the other defendants constituted libel and defamation, defamation
per se, slander, slander per se, intentional infliction of emotional distress, tortious
interference with contract or business expectancy, tortious interference with a
prospective business relationship, invasion of privacy by misappropriation, invasion of
privacy, civil conspiracy, and stalking.

i Fleming's brief describes Dauben as "an Ellis County journalist who was convicted of several felony sex
crimes against a minor."
Windsor v. Fleming

Page 2

•

January 21,2014 - Fleming filed his original answer and special exceptions

to Windsor's petition. Fleming denied all of Windsor's allegations.
•

February 26, 2014 - Fleming filed a motion to dismiss Windsor's claims

against him under the Texas Citizens Participation Act (TCPA), generally known as the
Texas anti-SLAPP ("strategic lawsuit against public participation") law. See Tex. Civ.
Prac. & Rem. Code Ann. §§ 27.00l-.0ll.
•

March 10, 2014 - The trial court issued a memorandum ruling, staying all

of the proceedings in the case. The memorandum ruling provided:
IT IS ORDERED that effective immediately, all proceedings in the above
entitled and numbered lawsuit are hereby stayed and remain on hold,
including legal deadlines applicable to any party, until such time as the trial
court further examines the legal implications and applicability of the Order
and vexatious litigant injunction directed against William M. Windsor
dated July 15, 2011 and issued by Thomas W. Thrash, Jr., United States
District Judge for the Northern District of Georgia ....
The memorandum ruling then specifically stated:
This stay of proceedings applies without prejudice, by way of example only
and not by way of any limitation, to - (i) any of Plaintiff's pending motions,
requests for hearings, or court dates; (ii) Defendant Sean D. Fleming's Motion
to Dismiss; and (iii) the various requests received by the trial court for
hearings on special exceptions .... [Emphasis added.]
March 17, 2014 - Windsor filed a motion requesting that the trial court
allow him to conduct discovery and that the hearing on Fleming's TCPA motion to
dismiss be set for June 23,2014, approximately 120 days from the date that Fleming filed
his motion to dismiss.

Windsor v. Fleming

Page 3

•

April 7,2014 - Windsor filed a pleading entitled "Constitutional Challenge

to Texas Citizens Participation Act" and a motion to dismiss Fleming's TCPA motion to
dismiss.
April 10, 2014 - Windsor filed a supplement to his motion to dismiss
Fleming's TCPA motion to dismiss.
•

August 11, 2014 - The trial court signed "Trial Court Order No. 1 and

Notice of Hearing." The trial court concluded in its order that it was not permitted to
dismiss Windsor's lawsuit outright for his noncompliance with the terms of the vexatious
litigant injunction issued by the federal district judge in Georgia,

The trial court

concluded, however, that it possessed "legal authority within its inherent judicial power
to impose various litigation control measures.

The trial court's order therefore

provided:
It is Ordered that the stay of proceedings is hereby lifted; however, such
Order is specifically subject to and conditioned upon [Windsor]'s current
and future compliance with all the other Orders contained herein[, which
included an "Order Providing for Litigation Control Measures."] The
preceding Order shall be referred to as the "Order Lifting Stay of
Proceedings."

Accordingly, with respect to the mechanics of initially lifting the
stay, the trial court finds and rules that the Order Lifting Stay of
Proceedings shah become automatically effective on such date as [Windsor]
(i) complies with Litigation Control Measures #1, #5, #6, and #7 of the
preceding Order Providing for Litigation Control Measures; and (ii) files of
record a Notice of Compliance with Litigation Control Measures #1, #5, #6, and
#7 (with file marked courtesy copy being sent directly to the presiding
judge).

Windsor v. Fleming

Page 4

"Trial Court Order No. 1 and Notice of Hearing" also notified the parties that a
hearing for the purpose of establishing a "Preliminary Discovery Control Plan &
Scheduling Order" would be held on September 19, 2014.
•

August 12, 2014 - Windsor filed a "Notice of Compliance with Litigation

Control Measures and Motion for Reconsideration. Windsor requested in the pleading
that the trial court reconsider its imposition of the litigation control measures but also
represented that he had complied with Litigation Control Measures #1, #5, #6, and #7.
Additionally, on August 12, Windsor filed his second amended petition against
Fleming and the other defendants. Along with the allegations in his first amended
petition, Windsor alleged in his second amended petition that Fleming s and the other
defendants' actions constituted invasion of privacy by disclosure and business
disparagement, Windsor also brought a conversion claim against one of the other
defendants, but the claim did not concern Fleming.
Finally, on August 12, Windsor filed a motion to declare that he is not a public
figure or a limited-purpose public figure and, separately, a motion for sanctions and
perjury against Fleming.
•

September 16,2014 - Windsor filed a second supplement to his motion to

dismiss Fleming's TCPA motion to dismiss.
•

September 17, 2014 - Fleming filed a response to Windsor's motion to

declare that he is not a public figure or a limited-purpose public figure.
•

September 19,2014 - The trial court held a hearing. At the outset, Fleming's

counsel stated that his "primary concern" was to set Fleming's TCPA motion to dismiss
Windsor v. Fleming

Page 5

for a hearing. Counsel for Sam Round, another defendant, then noted that Round had
filed a similar motion but that he had also filed a special appearance that needed to be
heard before the TCPA motions to dismiss. The trial court agreed, stating that there
needed to be a hearing on the special appearance and that it would then proceed to hear
any motion to dismiss Windsor's claims under the TCPA.
Windsor noted at that point that he had filed a motion asking that the trial court
declare that he is not a public figure or limited-purpose public figure. The trial court
responded by stating that that issue might be taken up at the hearing on the TCPA
motions to dismiss. Windsor then asserted that he needed to conduct discovery to
respond to the TCPA motions to dismiss and that he had also filed

"a document seeking

to have the [TCPA] declared unconstitutional in part." The following exchange then took
place:
THE COURT: [Fleming's counsel], maybe what we could do is
combine the special appearance hearing along with a hearing to determme
whether or not discovery, if at all, is appropriate prior to the Chapter 27
[TCPA] hearing. Does that make sense?
[Fleming's counsel]: Okay. Yes, sir. I understand. And, Your
Honor, are you going to wait to set our hearing until that time as well or
- there is a deadline associated with this motion. Now, with a stay all the
legal deadlines were postponed but - THE COURT: But the stay was lifted.
[Fleming's counsel]: But I understand. But once the stay is lifted,
then I guess the deadline starts accruing again. So it's supposed to be done
pretty quickly. I just wanted you to be aware of that.
TF1E COURT: I understand.

Windsor v. Fleming

Page 6

MR. WINDSOR: Your Honor, I don't know if it's possible, I don't
ything
in the statute and I haven't found any cases, but I'm certainly
see an
agreeable to enter into something that extends the period of time if they
aren't dismissed for various reasons because I believe - - I believe one or
more of them is expired, one of them was filed during the stay so there are
some procedural issues, but the point is, if it's possible to agree to give a
longer period of time to them, I'm happy to do that.
At that point, the trial court instructed Windsor, Fleming's counsel, and Round's
counsel to confer and "come up with a framework for these hearings." After they
conferred, the following exchange occurred:
THE COURT: Then, Counsel, what type of input or agreement with
Mr. Windsor did you reach? Do we have a hearing date coming up?
[Round's counsel]: Your Honor, we reached an agreement on a
hearing date of October 28th at 1:30 p.m. and [the court coordinator] has
been kind enough to reserve the afternoon for the special appearance as
well as the discovery issues, whether discovery is warranted on the Chapter
27 Motions to Dismiss and we reached an agreement on that day and those
hearings.
THE COURT: So bottom line then, the hearing date set for October
28th, 2014 at 1:30 p.m., that will be, number one, to first consider the special
appearance issues and matters related to defendant Sam Round ....
And then, secondly, to determine whether or not any discovery in
the nature, scope and extent of discovery, if any, will take place in the
Chapter 27 hearing. And, of course, that may or may not affect Mr. Round
depending upon the Trial Court's ruling in the special appearance but will
affect Sean Fleming. Is that correct, [Fleming's counsel]?
[Fleming's counsel]: Yes, Your Honor.

[Fleming's counsel]: Your Honor, hopefully at that hearing we'll
then be able to set a hearing date for the Motion to Dismiss. Is that what
you're envisioning?
THE COURT: Absolutely. Absolutely....
Windsor v. Fleming

Page 7

[Fleming's counsel]: I was just going to make a note that, I mean, as
long as it's not an issue, that the statute does say that die hearing should be
I think up in 90 days after service, but as long as that's not going to be an
issue, there's no objection.
THE COURT: You tell me, do I lose jurisdiction over that issue? By
stipulation?
[Fleming's counsel]: Can we stipulate?
MR. WINDSOR: Well, I think what you could actually do would be
to set a date just as long as it's off in the future somewhere. I understand
you'd be busy in November, so maybe December.
[Fleming's counsel]: You're not going to feel -- you'll stipulate on
the record that - THE COURT: Well, I tell you what. Let's do this. Let's set the
hearing on the merits for Chapter 27 also for October 28th, 2014 with the
understanding that it may be announced and started, but it will be
immediately recessed. And the reason why it will be recessed is to address
discovery issues.
So pragmatically you're not going to reach the merits. But for all
purposes - - for all legal purposes whatsoever and on the record, that issue
will be at least started and kept open.
And, Mr. Windsor, you're also stipulating to the fullest extent under
the law that the Trial Court's authority to hear such Chapter 27 matters,
even outside the 90-day rule is permissible, correct?
MR. WINDSOR: No[t] exactly, Your Honor. I had filed motions that
these - - Section 27 [sic] are defective for various reasons so - THE COURT: I understand. But you're not waiving your arguments
that they're defective. Are you suggesting that if the defectives - - if the
defects or fails and we arrive at that determination after the 90-day time
period they cannot be brought up? Are you talking about procedural
defects or substantive defects?

Windsor v. Fleming

Page 8

MR. WINDSOR: One of them has expired, Your Honor, according
to the statute. One of them was filed while the stay was in effect. Several
of the pro se defendants have now filed them. It's well past the 60 days that
you're allowed, so that would wipe them all out.
[Fleming's counsel]: Your Honor, one comment. I think -THE COURT: Here's what we've got to do then. I didn't realize
those other pro se defendants filed Chapter 27 motions, so are all our pro
se defendants here as far as we know?
MR. WINDSOR: No, Your Honor.
THE COURT: Well, the ones that announced earlier this morning,
are they here?
[Pro se defendant]: Yes.
THE COURT: Everybody still here. Okay. Then I'm giving you
notice now that we are going to hear the Chapter 27 motions on October 28,
2014, at 1:30 p.m. At the time we begin the hearing I will be open to the
request to consider whether or not I will allow any discovery. If I allow
discovery, we will, perhaps, adjourn certain or all of the motions. We'll
allow the discovery to take place. Then we'll resume. If I don t allow the
discovery to take place, then we will hear the motions on the merits. Sound
reasonable?
[Round's counsel]: Yes, Your Honor[.]
[Fleming's counsel]: Yes.
THE COURT: Mr. Windsor?
MR. WINDSOR: Yes, Your Honor.
THE COURT: Pro se defendants agreeable?
PRO SE DEFENDANTS: Yes.

Windsor v. Fleming

Page 9

•

September 24, 2014 - Fleming filed a "Motion to Declare [Windsor] a

Vexatious Litigant [and] Request Security under Chapter 11 of the Texas Civil Practice
and Remedies Code."
•

October 2, 2014 - Windsor filed a motion to strike, and, in a separate

document, a response to, Fleming's "Motion to Declare [Windsor] a Vexatious Litigant
[and] Request Security under Chapter 11 of the Texas Civil Practice and Remedies Code."
Windsor also moved for sanctions against Fleming.
•

October 23,2014 - Fleming filed a reply to Windsor's response to Fleming's

TCPA motion to dismiss.
•

October 27, 2014 - Fleming filed a response to Windsor's motion to strike

Fleming's "Motion to Declare [Windsor] a Vexatious Litigant [and] Request Security
under Chapter 11 of the Texas Civil Practice and Remedies Code."

Fleming also

responded to Windsor's motion for sanctions against him.
•

October 28, 2014 - Windsor filed his third amended petition against

Fleming and the other defendants. Along with the allegations in his second amended
petition, Windsor alleged in his third amended petition that Fleming's and the other
defendants' actions constituted intentional infliction of emotional distress through online
impersonation.
Additionally, on October 28, Windsor filed a "Motion Regarding Expiration of
Motion to Dismiss of Defendant Sean D. Fleming." The trial court then held a hearing.

Windsor v. Fleming

Page 10

The trial court stated that the "first order of business" at the hearing was Round's
special appearance. Once that portion of the hearing concluded,2 the trial court then
stated, "[Fleming's counsel], let's go ahead and proceed with your Motion to Dismiss
under Chapter 27 of the Civil Practice] and Remedies Code."

Windsor, however,

objected at that point, stating as follows:
Your Honor, I would like to object to this next topic that you want to
cover. I filed today a Motion regarding Expiration of the Motion to Dismiss
of Sean D. Fleming, and counsel gave you a copy of it so you have it there.
The issue is that the timing relative to these so-called Texas Citizens
Participation Act filings and hearings are very, very specific. In this case,
Sean D. Fleming served to me on February 24th a copy of that service
document which is attached as an exhibit to this.
The hearing - - and it states - - the statute says, "In no event", [sic]
twice it says this. "In no event, shall the hearing occur more than 90 days
after the service of the Motion", [szc] Well, if we calculate those days, we
come up that October 26th was the date that the hearing needed to be held.
It's October 28th, by statute, this Motion to Dismiss has been denied. Their
option now is to file an appeal. The hearing was not held in the required
90 days.
After the trial court and the parties discussed Windsor s objection, and after the
trial court recessed the hearing for about an hour, Fleming's counsel asserted:
Your Honor, I don't mean to interrupt, but I do have a suggestion to
get around this dilemma that we've been discussing so that you can arrive
at a legally correct ruling if I could just be heard for one moment, and I
didn't think of it until the break. Section 27.006(b) says, "On a motion by a
party or on the Court's own motion or on a showing of good cause, the
Court may allow specified and limited discovery relevant to the Motion,
and if the Court allows such discovery, you have up until 120 days to have
this hearing", [sic]

2 The trial court ultimately signed an order on November 24, 2014, sustaining Round s special appearance
and dismissing with prejudice all of Windsor's claims against Round.
Page 11
Windsor v. Fleming

So, I would make a motion that the Court allow - - or the Court may
on its own motion allow specified and limited discovery relevant to the
motion....
The trial court asked Windsor if he was "generally agreeable in principle to additional
discovery in this circumstance." Windsor replied, "No, Your Honor, not at all. The
statute says, In no event, in no event shah the hearing occur more than 90 days after',
[sic] You can't come on the 92nd day and make a motion about discovery because the 90
days are up." The trial court thus made a ruling, which consisted of the following:
THE COURT: ....
With respect to the Civil Practices and Remedies Code, Section
27.004 hearing and related Motions to Dismiss under CPRC 27.0003 [sic],
Number 1, the trial court does find that Mr. Fleming's Motion was
originally timely filed and that it was filed within 60 days after the date of
when he was served with the Original Petition for lawsuit. The trial court
recognizes that at a point in time in March this trial court stayed all
proceedings and discovery primarily because it was dealing with a Federal
District Court Injunction out of Georgia, its application to this case, and
further, there was a related appeal filed by Mr. Windsor, I believe against
Judge Fitzwater, writ of mandamus, to the New Orleans Court of Appeals.
So, generally, for those reasons, this trial court stayed certain actions and
proceedings.
At a point in time in August, I don't have the specific date handy,
the trial court lifted the stay of proceedings - [Fleming's counsel]: August 10th, Your Honor.
THE COURT: - - and that became, I believe, at that point in time
after the New Orleans Court of Appeals issued its decision with respect to
Judge Fitzwater. That was also at the same time or after the trial court
issued its ruling with respect to the nonapplicability of the Georgia Federal
District Court Injunction.
At any rate, due in part to those events and the collective history in
connection with this case and also taking into account that a new District
Court was created for Ellis County, to-wit, 443rd District Court, wherein
Windsor v. Fleming

Page 12

that announcement was made either in late August or early September
wherein a Judge was sworn in on September 4th, 2014, this trial court does
find that the docket conditions were such that good cause was presented
and it required a later hearing date, so this trial court is going to take the
maximum amount of time allowed by law to conduct a hearing in
connection with the anti-[SLAPP] MotionJ ] to Dismiss presented by Mr.
Fleming.
Prior to going on break, we came down to 27.004, Subsection B, the
90-day rule and Subsection C, the 120-day rule.
As I reviewed the pleadings and affidavits and exhibits on file, the
trial court finds and believes that I want both sides, that is, both Plaintiff
Mr. Windsor and both Defendant, Mr. Fleming, to have some opportunity
to engage in discovery because this issue is so important and this issue may
provide either side or both sides with the possibility of an Interlocutory
Appeal, I want to make sure that this trial court does its job and gets the
decision correct based upon the law and the evidence, let the chips fall
where they will, may be permitted to go forward if the speech is not
constitutionally protected, and the defamatory nature may not be permitted
to go forward if the speech is constitutionally protected.
But at any rate, Chapter 27, CPRC sets forth in detail the various
burdens of proof and the various requirements and elements and legal
standard that both sides need to prove in order to prevail on their respective
cases, so bottom line, I [am] going to allow the discovery and I am going to
find that the 120-day rule applies, I would tike to expedite the discovery,
and I would like to proceed forward on the dismissal hearing as quickly as
possible....
Thereafter, the trial court set the following schedule. The trial court required
Windsor to file any reply to Fleming's response to Windsor s motion to declare that he is
not a public figure or limited-purpose public figure by October 30, 2014. The trial court
required Fleming's counsel to file any sur-reply to Windsor's reply to Fleming's response
to Windsor's motion to declare that he is not a public figure or limited-purpose public
figure by November 3, 2014. The trial court then scheduled a hearing on Windsor's
motion to declare that he is not a public figure or limited-purpose public figure for
Windsor v. Fleming

Page 13

November 6, 2014. The trial court stated that after it ruled on that date, it would
determine the scope of discovery to allow with regard to Fleming's TCPA motion to
dismiss. Finally, the trial court scheduled the hearing on Fleming's TCPA motion to
dismiss for November 20,2014.
•

October 30, 2014 - Windsor filed an emergency motion for stay. Windsor

stated in the motion that he had been "incarcerated at the Ellis County Jail following the
October 28, 2014 hearing" in relation to a legal matter in Montana. Windsor therefore
requested that the trial court stay the proceedings until at least forty-eight hours
following his release from jail.
Additionally, on October 30, Windsor filed a "partial reply" to Fleming's response
to Windsor's motion to declare that he is not a public figure or a limited-purpose public
figure.
•

November 3, 2014 - Fleming filed a sur-reply to Windsor's reply to

Fleming's response to Windsor's motion to declare that he is not a public figure or a
limited-purpose public figure.
•

November 6, 2014 - The trial court held the next hearing. The trial court

began by addressing Windsor's emergency motion for stay. After discussing the motion
extensively with the parties, the trial court stated that it did not "see how [Windsor was]
prejudiced by this matter." The trial court informed Windsor that he was free to use
anything in the three boxes of records from the case at any time that he wanted during
the hearing. The trial court also made sure that Windsor received his own copy of each
of the following: Windsor's motion to declare that he is not a public figure or limitedWindsor v. Fleming

Page 14

purpose public figure, Fleming's response to Windsor's motion, Windsor's reply to
Fleming's response to Windsor's motion, and Fleming's sur-reply to Windsor s reply to
Fleming's response to Windsor's motion. Finally, the trial court recessed the hearing "for
a few minutes" to give Windsor "an opportunity to review these documents" before
continuing.
After the recess, the trial court began the portion of the hearing on Windsor's
motion to declare that he is not a public figure or limited-purpose public figure. Wmdsor
testified at the hearing, and several exhibits were admitted into evidence, The trial court
then stated as follows:
The Trial Court's ruling in Cause Number 88611, William M.
Windsor as plaintiff versus joeyisalittlekid.blogspot.com, et al is as follows.
Trial Court finds that William Windsor is not an all purpose public figure.
Further, the Trial Court finds at a minimum that William Windsor is anonline internet and social media crusader against judicial and governmental
corruption and the leader of the revolutionary party. Trial Court finds that
William Windsor is a limited purpose public figure in those areas.
After making the foregoing ruling, the trial court then moved on to the issue of
discovery with respect to Fleming's TCPA motion to dismiss. The trial court determined
that Windsor would be allowed to ask questions of Fleming regarding the allegedly
defamatory statements that Windsor believed that Fleming made. Windsor, however,
was required to identify the date, time, and media source or publication outlet for each
statement about which he questioned Fleming, and Windsor s questions were required
to be sent to Fleming by November 10, 2014. The trial court ordered that after receiving
Windsor's questions, Fleming would then be required to admit or deny making each
allegedly defamatory statement and to explain why he felt that the statement was
Wmdsor v. Fleming

Page 15

constitutionally protected. Fleming's responses were required to be sent to Windsor by
November 17,2014. The trial court stated that Windsor would then be required to explain
why each of the statements was not constitutionally protected, i.e., why each of the
statements was defamatory.
•

November 10, 2014 - Windsor filed a "Motion for Reconsideration of

Orders Regarding Sean D. Fleming's Motion to Dismiss." Although filed on November
10, the motion was dated October 30. Windsor requested in the motion that the trial court
reconsider his "Motion Regarding Expiration of Motion to Dismiss of Defendant Sean D.
Fleming" and asked that the trial court "rule that the motion was denied by statute."
•

November 12, 2014 - Windsor filed a second emergency motion for stay.

In tiie motion, Windsor again requested that the trial court stay the proceedings because
of the difficulties that he was encountering in representing himself while in jail.
•

November 13, 2014 - Windsor filed a motion for limited discovery from

Fleming on Fleming's TCPA motion to dismiss and, in a separate document, a third
emergency motion for stay. Both motions were dated November 10 even though they
were not filed until November 13. In the third emergency motion for stay, Windsor
incorporated his first two emer gency motions for stay; explained that, because of his
circumstances, he "ha[d] not been allowed" to meet the deadline that the trial court had
set to submit discovery to Fleming; and requested that the trial court stay the proceedings
until the problems he was experiencing were resolved.
Additionally, on November 13, Windsor filed a "Notice of Appeal of Order
Regarding Motion to Dismiss of Defendant Sean D. Fleming."
Windsor v. Fleming

Page 16

•

November 17, 2014 - Windsor filed a response to Fleming's TCPA motion

to dismiss. Windsor also filed a request for findings of fact and conclusions of law
regarding the trial court's ruling on Windsor's motion to declare that he is not a public
figure or a limited-purpose public figure.
•

November 18,2014 - Windsor filed a "Motion to Strike 'Exhibits' Attached

to Affidavits on Defendant Sean D. Fleming's Filings on His Motion to Dismiss.
Windsor also filed a motion to strike Fleming's reply to Windsor's response to Fleming's
TCPA motion to dismiss.
November 19, 2014 - Windsor filed another motion for stay, again
requesting that the trial court stay the proceedings because of the difficulties that he was
encountering in representing himself while in jail.
•

November 20, 2014 - The trial court held another hearing. At the outset,

the trial court asked whether Windsor had been able to comply with the discovery order
that had been outlined during the November 6 hearing. Windsor replied that he had not.
The trial court then asked Fleming's counsel what her experience had been with regard
to the discovery, and Fleming's counsel replied, "I never received any discovery from Mr.
Windsor, and I never received any responses to my discovery."

The trial court

nevertheless continued with the hearing on Fleming's TCPA motion to dismiss.
At the conclusion of the hearing, the trial court decided to delay its ruling so that
it could first review everything that the parties had filed. The trial court stated that the
parties were also free to forward any further analysis of the law or even supplemental
affidavits to the trial court if they wished. Fleming's counsel then requested at that time
Windsor v. Fleming

Page 17

that the trial court award. Fleming attorney s fees and costs and assess sanctions against
Windsor if the trial court granted Fleming's motion to dismiss.
•

November 21, 2014 - Windsor filed a request for leave to appeal the trial

court's ruling on his motion to declare that he is not a public figure or a limited-purpose
public figure.
November 24, 2014 - Windsor filed a supplement to his response to

•

Fleming's TCPA motion to dismiss.
•

November 25, 2014 - Windsor filed an "Emergency Motion for Extension

of Time [to December 7, 2014] to Supplement Record in Response to Defendant Sean D.
Fleming's Motion to Dismiss." Windsor also filed a supplement to his motion to strike
Fleming's reply to Windsor's response to Fleming's TCPA motion to dismiss.
•

November 28, 2014 - The trial court sent a letter to the parties stating that

such correspondence constituted the trial court's "memorandum ruling" in connection with
Fleming's TCPA motion to dismiss. The letter provided:
In accordance with CPRC Section 27.005(b), the trial court finds that the
Defendant and Movant herein, Sean D. Fleming ("Fleming"), has shown by
a preponderance of the evidence that the legal action brought by the
Plaintiff, William M. Windsor ("Windsor"), is based on, relates to, and is in
response to Fleming's exercise of his right of free speech.
Further, as required by CPRC Section 27.005(c), Windsor has failed to
establish by clear and specific evidence a prima facie case for each essential
element of his defamation claim against Fleming which is in question.
Moreover, notwithstanding the provisions of CPRC Section 27.005(c),
Fleming has established by a preponderance of evidence a valid defense to
Windsor's claim.
Therefore, the trial court hereby grants the Motion to Dismiss.
Windsor v. Fleming

Page 18

Because Fleming was the prevailing party, the trial court then requested in the letter that
Fleming's counsel draft the dismissal order consistent with the memorandum ruling.
Additionally, the letter provided that the correspondence would serve as the
"notice of hearing" for certain legal matters, The trial court stated in the letter that,
consistent with section 27.009 of the Civil Practice and Remedies Code, it was required to
awar d Fleming court costs, reasonable attorney's fees, and other expenses in defending
the action as justice and equity might require, along with sanctions against Windsor as
the court determined sufficient to deter the filing of similar actions. Accordingly, the
letter provided that the trial court would conduct a hearing on December 8,2014, to enter
the dismissal order and to review all evidence in support of the relief described in section
27.009, along with legal analysis and arguments from both sides, The trial court also set
the following pleading schedule for the hearing. Fleming was required to file and serve
all supplemental pleadings and evidence by December 3,2014. Windsor was required to
file and serve any regular or supplemental written response by December 4, 2014, and
Fleming was required to file and serve any final written reply by December 5, 2014.
•

December 2, 2014 - Windsor filed a second supplement to his response to

Fleming's TCPA motion to dismiss. It was dated November 27 even though it was not
filed until December 2.
•

December 3, 2014 - Windsor filed a notice of appeal from the trial court's

November 28 memorandum ruling. Windsor also filed a motion for discovery, including
discovery from Fleming; a motion for continuance of die hearing scheduled for December

Windsor v. Fleming

Page 19

8, 2014; and a motion for stay of all proceedings related to Fleming until Windsor had
"pursue[dj all available appellate relief."
Additionally, on December 3, Fleming filed a supplemental motion for costs,
expenses, attorney's fees, and sanctions in support of his TCPA motion to dismiss.
•

December 8, 2014 - Windsor filed a motion to recuse the Honorable Bob

Carroll from presiding over the case.
•

December 12, 2014 - Fleming filed a response to Windsor's motion to

recuse the Honorable Judge Carroll, arguing that the motion should be denied.
•

December 17, 2014 - The Honorable Judge Carroll signed a voluntary

recusal order in the interest of judicial economy. Based on the voluntary recusal, the
Presiding Judge of the First Administrative Judicial Region transferred the case to the
378th District Court of Ellis County and assigned the Honorable Gene Knize to preside
over the case.
•

December 18,2014 - The trial court, i.e., the Honorable Judge Knize, began

conducting another hearing. At the outset, Judge Knize informed the parties that he had
been assigned to preside over the case and that each side had the right to challenge an
assigned judge. Judge Knize then inquired, "So does either side wish to challenge the
judge that's been assigned to hear this case, which is me?" Windsor replied, "Yes. Your
Honor, I do." At that point, in an order of assignment, the Honorable Richard Davis was
assigned to preside over the case by the Presiding Judge of the First Administrative
Judicial Region.

Windsor v. Fleming

Page 20

While the Honorable Judge Davis was traveling to the courthouse, Windsor filed
a motion to strike the affidavits of Fleming and his attorneys, a motion for continuance
of the hearing being held that day, and a notice of removal stating that he removed this
case to the United States District Court of South Dakota. Once Judge Davis arrived to
continue conducting the hearing, Windsor informed the trial court of his filings and then
stated, "I don't believe you have jurisdiction at this point." Windsor further asserted that
if the notice of removal did not deny the trial court jurisdiction, then the trial court should
"stay the case and continue it." The trial court ultimately ruled: "Court feels that the
Court does have jurisdiction at this time, and we'll continue with the hearing today.
Motion for Stay is denied at this point. The Court does recognize the timeframes that
we're dealing with. At this time you may proceed."
The trial court continued with the hearing on Fleming's motion for entry of order
and assessment of attorney's fees, court costs, and sanctions. Later that day, the trial
court then signed an "Order Granting Defendant Sean D. Fleming's Anti-SLAPP Motion
to Dismiss and Judgment Awarding Costs, Expenses, Attorney's Fees and Sanctions in
Favor of Sean Fleming Against William Windsor." The order stated in pertinent part that
the trial court
ORDERED, ADJUDGED and DECREED that Defendant's Motion to
Dismiss and Supplemental Motion for Costs, Expenses, Attorney s Fees,
and Sanctions in Support of his Motion to Dismiss are hereby granted, that
all of Plaintiff's claims against Defendant Sean Fleming are dismissed with
prejudice; that Plaintiff shall be required to pay Defendant Sean Fleming
expenses and costs of $3,526.63
______ and reasonable and necessary attorney s
fees of $77,558.50 incurred in defending against this legal action; and that
Plaintiff shall be ordered to pay Defendant Sean Fleming sanctions in the

Windsor v. Fleming

Page 21

amount of $250,000.00 to deter Plaintiff from bringing such actions in the
future....
•

January 12, 2015 - Windsor filed a notice of appeal from the trial court's

December 18 order.
•

January 15,2015 - Fleming filed a motion to sever all claims and causes of

action against him. Fleming also filed a "Notice of Oral Hearing," providing notice that
the motion to sever had been scheduled for an oral hearing on January 29, 2015.
•

January 28,2015 - The United States District Court of South Dakota, Central

Division, dismissed Windsor's "case," stating, "The failure of Windsor to meet any of the
requirements for removing a case to federal court renders his purported removal of the
Ellis County, Texas case a nullity." Windsor v. Joey Is A Little Kid, No. 3:14-CV-03020, slip
op. at 2 (D.S.D. Jan. 28, 2015) (order dismissing proceeding).
•
hearing.

January 29, 2015 - The trial court (the Honorable Joe F. Grubbs) held a
Windsor did not appear at the hearing.

Fleming's counsel nevertheless

presented Fleming's motion to sever all claims and causes of action against him. After
considering the motion, the trial court signed an order granting Fleming's motion to
sever. The order stated: "The Court hereby SEVERS all claims brought by the Plaintiff
against Defendant Sean D. Fleming and ORDERS the Clerk of the Court to assign the
severed action the separate cause number of 88611-A styled William M. Windsor v. Sean
D. Fleming ...." The order further provided:
The Court's prior order signed on December 18, [2014] entitled
"Order Granting Defendant Sean D. Fleming's Anti-SLAPP Motion to
Dismiss and Judgment Awarding Costs, Expenses, Attorney's Fees, and
Sanctions in Favor of Sean Fleming Against William Windsor" dismissing
Windsor v. Fleming

Page 22

all claims and causes of action asserted by Plaintiff against Defendant, is
now FINAL and COLLECTABLE disposing of all claims and causes of
action as between Plaintiff and Defendant Sean D. Fleming.
•

February 12, 2015 - Windsor filed a request for findings of fact and

conclusions of law "for each order entered by this Court within the last 20 days and since
[December 18]."
•

March 9, 2015 - Windsor filed a "Notice of Failure to Provide Findings of

Fact and Conclusions of Law."
•

March 20, 2015 - Fleming filed a motion for entry of proposed findings of

fact and conclusions of law.
•

March 31, 2015 - The trial court made findings of fact and conclusions of

law in support of its December 18, 2014 "Order Granting Defendant Sean D. Fleming's
Anti-SLAPP Motion to Dismiss and Judgment Awarding Costs, Expenses, Attorney s
Fees and Sanctions in Favor of Sean Fleming Against William Windsor and its January
29, 2015 "Order Granting Defendant Sean Fleming's Motion to Sever.
April 13, 2015 - Windsor filed a "Motion to Quash Findings of Fact and
Conclusions of Law."3

3 Windsor's February 12, 2015 "Request for Findings of Fact and Conclusions of Law, Windsor s March 9
2015 "Notice of Failure to Provide Findings of Fact and Conclusions of Law," Fleming s March 20, 2015
"Motion for Entry of Proposed Findings of Fact and Conclusions of Law," the trial court s MarchS1,2015
"Findings of Fact and Conclusions of Law," and Windsor's April 13, 2015 "Motion to Quash Findings o
Fact and Conclusions of Law" were all filed in the original cause number (88611), not the new cause number
(88611-A) That does not, however, affect this Court's analysis of any of the issues raised in this appeal
Robins, 878 S.W.2d 138,139 (Tex. 1994) (per curiam) ("'[A] party should not be punish
See Blankenship v.
order of severance ignored by [both the opposmg party] and
"for failure to comply with the terms of an
Instead,
'the
decisions
of
the
courts of appeals [should] turn on substance rather than
the court.'"
procedural technicality.'" (citations omitted)).
Page 23
Windsor v. Fleming

Pending Motions in This Court
On August 3,2016, this Court issued an order that, in part, requested that Fleming
submit a letter brief on the effect, if any, of Windsor's November 13,2014 notice of appeal
and December 18, 2014 notice of removal. The Court's order further provided that
Windsor may submit a reply letter brief to Fleming s letter brief.
Fleming thereafter filed a letter brief, and Windsor filed a reply letter brief. Upon
review of the record and the parties' letter briefs, this Court then issued an order on
October 5, 2016, addressing the effect (or lack thereof) of Windsor's November 13, 2014
notice of appeal and December 18,2014 notice of removal.
On October 18, 2016, Windsor filed a "Motion for Rehearing of this Court s
October 5, 2016 order. Windsor also filed a motion to amend his appellant's brief. The
Court then requested that Fleming file a response to Windsor's "Motion for Rehearing,
which Fleming did.
We deny Windsor's "Motion for Rehearing" and his motion to amend his

appellant's brief. Nevertheless, the Court's October 5, 2016 order is withdrawn. The
effect, if any, of Windsor's November 13, 2014 notice of appeal and December 18, 2014
notice of removal, as well as the arguments presented in Windsor's "Motion for
Rehearing" regarding any effect, will be addressed below in Issues 1, 2, 3 and 4 of this
memorandum opinion.
Issue Nos. 1 and 2

In Issue Nos. 1 and 2, Windsor contends that Fleming's TCPA motion to dismiss
was denied by operation of law or expired by operation of law on either April 25, 2014,
Windsor v. Fleming

Page 24

or October 26, 2014, because the trial court failed to conduct a hearing on the motion to
dismiss within the time frame required by Civil Practice and Remedies Code section
27.004.
First, Windsor argues in Issue No. 1 that under section 27.004, the trial court was
required to conduct the hearing on Fleming's motion to dismiss by April 25, 2014, and
that Fleming's motion to dismiss expired because the trial court did not conduct the
hearing by that time. Windsor's argument, however, is based on a claim that the trial
court erred in its March 10,2014 memorandum ruling by staying Fleming's TCPA motion
to dismiss. Windsor did not preserve such a complaint about the trial court's March 10,
2014 memorandum ruling for appellate review.
Rule of Appellate Procedure 33.1(a) provides in relevant part:
As a prerequisite to presenting a complaint for appellate review, the record
must show that:
(1)

the complaint was made to the trial court by a timely request,
objection, or motion that:
(A) stated the grounds for the ruling that the complaining party
sou ght from the trial court with sufficient specificity to make the
trial court aware of the complaint, unless the specific grounds
were apparent from the context....

Tex. R. APP. P. 33.1(a)(1)(A).

Here, after the trial court issued its March 10, 2014

memorandum ruling, Windsor filed a motion on March 17,2014, requesting that the trial
court allow him to conduct discovery and that the hearing on Fleming's TCPA motion to
dismiss be set for June 23, 2014, approximately 120 days from the date that Fleming filed
his motion to dismiss. But Windsor did not make a specific complaint about the trial

Windsor v. Fleming

Page 25

court's March 10, 2014 memorandum ruling such that the trial court would understand
that Windsor wanted the ruling to be reconsidered. See McKinney v. Nat'l Union Fire Ins.
Co., 772 S.W.2d 72,74 (Tex. 1989) ("A specific objection is one which enables the trial court
to understand the precise grounds so as to make an informed ruling, affording the
offering party an opportunity to remedy the defect, if possible."). The same is true for
Windsor's April 7, 2014 "Constitutional Challenge to Texas Citizens Participation Act
and his motion to dismiss Fleming's TCPA motion to dismiss.

Furthermore, any

complaint about the trial court's March 10,2014 memorandum ruling that Windsor may
have made after April 25,2014 was untimely because it was not made until after the trial
court could have cured the alleged error. See Anderton v. Green, 555 S.W.3d 361, 372 n.4
(Tex. App.-Dallas 2018, no pet.) ("A 'timely' objection is 'one "interposed at a point in
the proceedings which gives the trial court the opportunity to cure any alleged error.

urn

)

(quoting Crews v. Dkasi Corp., 469 S.W.3d 194, 201 (Tex. App.-Dallas 2015, pet. denied)
(quoting Driver v. Conley, 320 S.W.3d 516, 518 n.3 (Tex. App.-Texarkana 2010, pet.
denied))).
Windsor therefore made no timely and specific complaint to the trial court about
the trial court's March 10,2014 memorandum ruling staying Fleming's motion to dismiss.
Accordingly, Windsor failed to preserve Issue No. 1 for appellate review. See Tex. R. APP.
P. 33.1(a).
In Issue No. 2, Windsor argues that even if the trial court's March 10, 2014
memorandum ruling extended the time frame in which the trial court had to conduct the
hearing on Fleming's TCPA motion to dismiss, the trial court was still required under
Windsor v. Fleming

Page 26

section 27.004 to conduct the hearing by October 26, 2014, and that Fleming's TCPA
motion to dismiss expired because the trial court did not conduct the hearing by that
time. But a party cannot lead a trial court into error and then complain about it later on
appeal. Zertuche v. Bexar Cty., No. 04-08-00895-CV, 2009 WL 2183631, at *3 (Tex. App. —
San Antonio Jul. 22, 2009, pet. denied) (mem. op.) (citing Union City Body Co. v. Ramirez,
911 S.W.2d 196, 202 (Tex. App.-San Antonio 1995, orig. proceeding)); see also Haler v.
Boyington Capital Group, Inc., 411 S.W.3d 631, 637 (Tex. App. —Dallas 2013, pet. denied)
("jTjhe doctrine of invited error provides that a party may not complain of an error which
the party invited.").
At the September 19, 2014 hearing, as Fleming's counsel was emphasizing to the
trial court the importance of holding the hearing on Fleming's TCPA motion to dismiss
quickly, Windsor volunteered, "[I]f it's possible to agree to give a longer period of time
to them, I'm happy to do that." Windsor claims that he did not thereafter actually agree
to a deadline extension. He also argues that he did not waive his complaint because he
stated, "Several of the pro se defendants have now filed [TCPA motions to dismiss]. It s
well past the 60 days that you're allowed, so that would wipe them all out." But Windsor
was complaining at that time about the pro se defendants having filed their motions to
dismiss untimely. Windsor was not complaining that any future hearing on Fleming's
TCPA motion to dismiss would be untimely. In fact, at one point, Windsor suggested to
the trial court that it should set the hearing for "maybe December." And when the trial
court finally stated that it was "going to hear the Chapter 27 motions on October 28,
2014," and asked if that sounded reasonable, Windsor replied, "Yes, Your Honor."
Windsor v. Fleming

Page 27

Accordingly, Windsor cannot now complain that the hearing had to have been conducted
by October 26, 2014.4 See Zertuche, 2009 WL 2183631, at *3. Windsor's Issue No. 2 is
therefore overruled.
Issue No. 3
In Issue No. 3, Windsor contends that the trial court lost jurisdiction over
Fleming's TCPA motion to dismiss when Windsor filed his November 13, 2014 notice of
appeal. We disagree.
Generally, appeals may be taken only from final judgments. Lehmann v. Har-Con
Corp., 39 S.W.3d 191, 195 (Tex. 2001); see Tex. Civ. Prac. & Rem. Code Ann. § 51.012.
Interlocutory orders may be appealed, however, if permitted by statute. Jack B. Anglin
Co. v. Tipps, 842 S.W.2d 266, 272 (Tex. 1992) (orig. proceeding). No statutory authority
exists for an interlocutory appeal from the grant of a motion to dismiss under section
27.003 of the TCPA. Inwood Forest Cmty. Improvement Ass'n v. Arce, 485 S.W.3d 65,70 (Tex.
App.-Houston [14th Dist.] 2015, pet. denied). But Civil Practice and Remedies Code
subsection 51.014(a) (12) provides: "A person may appeal from an interlocutory order of
a district court, county court at law, statutory probate court, or county court that . . .
denies a motion to dismiss filed under Section 27.003." TEX. Civ. Prac. & Rem. Code Ann.
§ 51.014(a)(12). Subsection 51.014(b) further states that an interlocutory appeal under

4 Windsor did not raise the complaint in Issue No. 2 for the first time in this appeal. By October 28, 2014,
Windsor was complaining in a "Motion Regarding Expiration of Motion to Dismiss of Defendant Sean D.
Fleming" that the hearing had to have been conducted by October 26,2014. By October 28,2014, however,
the complaint was untimely because the trial court could no longer cure the alleged error mto which
Windsor had led it. See Anderton, 555 S.W.3d at 372 n.4.
Windsor v. Fleming

Page 28

subsection (a)(12) "stays all other proceedings in the trial court pending resolution of that
appeal." Id. § 51.014(b).
Windsor argues that Fleming's motion to dismiss was denied by operation of law
on October 26, 2014, that Windsor filed a proper interlocutory appeal from the denial
when he filed his November 13, 2014 notice of appeal, and that the trial court therefore
lost jurisdiction to make any later rulings, including granting Fleming's motion to
dismiss. We assume without deciding that subsection 51.014(a)(12) applies when a TCPA
motion to dismiss is denied by operation of law.
Windsor appears to argue that Fleming's TCPA motion to dismiss was denied by
operation of law on October 26, 2014, for the same reason that Windsor urged in Issue
No. 2, i.e., because the trial court failed to conduct a hearing on the motion to dismiss
within the time frame required by Civil Practice and Remedies Code section 27.004. We
have already concluded in Issue No. 2, however, that Windsor cannot now complain that
the hearing had to have been conducted by October 26, 2014. See Zertuche, 2009 WL
2183631, at*3.
Moreover, although Fleming's TCPA motion to dismiss might have expired if
Windsor had not led the trial court into the alleged error, the motion to dismiss could not
have been denied by operation of law simply because the hearing was not conducted within
the time frame required by section 27.004. See Braun v. Gordon, No. 05-17-00176-CV, 2017
WL 4250235, at *3 (Tex. App. — Dallas Sept. 26, 2017, no pet.) (mem. op.) ("[W]e need not

read into the statute a provision that the court's failure to hold a timely hearing on the
motion to dismiss constitutes a denial of the motion by operation of law. Because the
Windsor v. Fleming

Page 29

movant has the burden of obtaining a timely setting on the motion to dismiss, the more
appropriate interpretation is to conclude that the movant's failure to have the case set for
a timely hearing results in the movant forfeiting the TCPA's protections, and the case
should continue as if the motion to dismiss was never filed."). Instead, Civil Practice and
Remedies Code subsection 27.005(a) provides: "The court must rule on a motion under
v

Section 27.003 not later than the 30th day following the date of the hearing on the
motion."

Tex. Civ. Prac. & Rem. Code Ann. § 27.005(a). Subsection 27.008(a) then

provides: "If a court does not rule on a motion to dismiss under Section 27.003 in the
time prescribed by Section 27.005, the motion is considered to have been denied by
operation of law and the moving party may appeal." Id. § 27.008(a).
Here, the trial court held the hearing on Fleming's TCPA motion to dismiss on
November 20, 2014. Eight days later, on November 28, 2014, the trial court issued a
memorandum ruling, stating that it was granting Fleming's TCPA motion to dismiss. On
December 18, 2014, also within thirty days of the November 20 hearing, the trial court
then signed its "Order Granting Defendant Sean D. Fleming's Anti-SLAPP Motion to
Dismiss and Judgment Awarding Costs, Expenses, Attorney's Fees and Sanctions m
Favor of Sean Fleming Against William Windsor." Fleming's motion to dismiss was
therefore never denied by operation of law. See id. §§ 27.005(a), 27.008(a).
Accordingly, Windsor was authorized to appeal only from the final judgment in
this case. On January 29, 2015, the trial court signed the order granting Fleming's motion
to sever, making the trial court's December 18, 2014 "Order Granting Defendant Sean D.
Fleming's Anti-SLAPP Motion to Dismiss and Judgment Awarding Costs, Expenses,
Windsor v. Fleming

Page 30

Attorney's Fees and Sanctions in Favor of Sean Fleming Against William Windsor " final.
See G.R. Auto Care v. NCI Group, Inc., Nos. 01-17-00068-CV, 01-17-00243-CV, 2018 WL
4087295, at *7 (Tex. App.-Houston [1st Dist.] Aug. 28, 2018, no pet.) (mem. op.) ("A
severance order makes an interlocutory judgment final and appealable if the judgment
disposes of all claims between the parties."). Windsor's prematurely filed notices of
appeal became effective and were deemed filed on the day of, but after, the trial court
signed the severance order. See Tex. R. App. P. 27.1(a). Because Windsor never filed a
proper interlocutory appeal, Rule of Appellate Procedure 29.5(b) did not apply. See id. R.
29.5(b). Windsor's Issue No. 3 is overruled.
Issue No. 4
In Issue No. 4, Windsor contends that the trial court lacked jurisdiction to sign its
December 18,2014 "Order Granting Defendant Sean D. Fleming's Anti-SLAPP Motion to
Dismiss and Judgment Awarding Costs, Expenses, Attorney's Fees and Sanctions in
Favor of Sean Fleming Against William Windsor" because Windsor had removed the case
to federal court. See 28 U.S.C. § 1446(d). We conclude, however, that, because Windsor's
purported removal was a nullity, see Windsor v. Joey Is A Little Kid, No. 3:14-CV-03020, slip
op. at 2 (D.S.D. Jan. 28, 2015) (order dismissing proceeding), it did not deprive the trial
COUrt of jurisdiction

to sign its December 18, 2014 order. See Parrish v. State, 485 S.W.3d

86, 89-90 (Tex. App.-Houston [14th Dist.] 2015, pet. ref'd). Issue No. 4 is overruled.
Issue No. 5
In Issue No. 5, Windsor contends that the trial court erred in failing to grant him
an extension of time to supplement his petition with specific evidence of defamation.
Windsor v. Fleming

Page 31

More specifically, Windsor asserts that he was not allowed sufficient discovery and
sufficient time to supplement. This issue, however, is inadequately briefed.3
The rules of appellate procedure require that an appellant's brief "must contain a
clear and concise argument for the contentions made, with appropriate citations to
authorities and to the record." TEX. R. App. P. 38.1(i). This requirement is not satisfied by
Martinez v.
mer ely uttering brief conclusory statements, unsupported by legal citations.
El Paso Cty., 218 S.W.3d 841, 844 (Tex. App.-El Paso 2007, pet struck). An appellate
court has no duty to perform an independent review of the record and applicable law to
determine whether the error complained of occurred. Strange v. Cont'l Cos. Co., 126
S.W.3d 676, 678 (Tex. App.-Dallas 2004, pet. denied).
Windsor's argument in this issue is conclusory. Windsor states generally that he
"tried repeatedly to obtain discovery" but that he was not given the discovery and was
ignored. But Windsor does not identify and analyze specific adverse rulings or refusals
to rule by the trial court. See TEX. R. APP. P. 33.1(a)(2) ("As a prerequisite to presenting a
complaint for appellate review, the record must show that... (2) the trial court: (A) ruled
on the request, objection, or motion, either expressly or implicitly; or (B) refused to rule
on the request, objection, or motion, and the complaining party objected to the refusal.").

5 Windsor has twice had the opportunity to amend his appellant's brief to cure any deficiencies. In a July
16 2015 order, this Court struck Windsor's initial appellant's brief because it was prematurely filed, It was
filed before the appellate record was filed and thus lacked the required citations to record references.
Windsor filed a second appellant's brief on September 22, 2015. But it too lacked the requued citations to
record references; therefore, in an August 3, 2016 order, this Court struck Windsor s September 22 2015
appellant's brief. This Court nevertheless granted Windsor's motion to file an amended appeUan s bneh
This Court's order specifically notified Windsor that his amended appellant s brief shall substantially
comply with Rule of Appellate Procedure 38.1 and must include appropriate citations to the record
Windsor thereafter filed his current appellant's brief on September 21, 2016; however, several of his issues
are sti]l inadequately briefed and will be overruled as such.
Page 32
Windsor v. Fleming

Furthermore, Windsor's argument regarding this issue contains no citations to any legal
authorities. Issue No. 5 is therefore overruled as inadequately briefed.6
Issue No. 7
In Issue No. 7, Windsor contends that the trial court erred in failing to address his
April 7, 2014 motion to dismiss Fleming's TCPA motion to dismiss. The trial court,
however, implicitly denied Windsor's motion to dismiss by granting Fleming's TCPA
motion to dismiss. See Gen. Agents Ins. Co. of Am., Inc. v. El Naggar, 340 S.W.3d 552, 557
(Tex. App.-Houston [14th Dist.] 2011, pet. denied) ("When parties present crossmotions that are opposed and mutually exclusive, an order that grants one motion may
implicitly deny the other."). Windsor's Issue No. 7 is overruled.
Issue No. 8
In Issue No. 8, Windsor contends that the trial court erred in failing to address his
motions. Windsor asserts that over one hundred motions were "ignored." Fleming
responds that this issue is inadequately briefed, but Windsor replies that he has
"referenced a list with citations to the Record" and has "referred to the Docket showing
motions that were never addressed." Windsor has also cited one case in support of the
general proposition that" [w]hen a motion is properly filed and pending before the trial
court, the act of giving consideration to and ruling upon that motion is a ministerial act.

6 We nevertheless note that Civil Practice and Remedies Code subsection 27.003(c) provides: Except as
provided by Section 27.006(b), on the filing of a motion under this section, all discovery in the legal action
is suspended until the court has ruled on the motion to dismiss." Tex. Civ. Prac. & Rem. Code Ann. §
27.003(c). And subsection 27.006(b) states: "On a motion by a party or on the court's own motion and on
a showing of good cause, the court may allow specified and limited discovery relevant to the motion." Id.
§ 27.006(b) (emphasis added). At the November 6,2014 hearing, the trial court did allow for specified and
limited discovery relevant to Fleming's motion to dismiss.
Page 33
Windsor v. Fleming

See Safety-Kleen Corp. v. Garcia, 945 S.W.2d 268, 269 (Tex. App.-San Antonio 1997, orig.
proceeding).
Windsor has not, however, addressed any of the motions specifically. He has not
even specified in the record where each of the over

one hundred motions was brought to

the trial court's attention and the trial court refused to rule on the motion. We therefore
overrule Windsor's Issue No. 8 as inadequately briefed. See Tex. R. App. P. 38.1(i);
Martinez, 218 S.W.3d at 844; Strange, 126 S.W.3d at 678.
Issue No. 9
In Issue No. 9, Windsor contends that the trial court erred in not addressing his
April 7, 2014 "Constitutional Challenge to Texas Citizens Participation Act. " The record,
however, does not show that Windsor presented his constitutional challenges to the trial
court, that the trial court refused to rule on the constitutional challenges, and that
Windsor then objected to the trial court's refusal to rule. Accordingly, Windsor failed to
preserve Issue No. 9 for appellate review. See Tex. R. App. P. 33.1(a).
Issue No. 10
In Issue No. 10, Windsor contends that the trial court erred in considering
Fleming's motion to dismiss Windsor's original petition because Windsor had amended
the petition such that his third amended petition was the live petition at the time that the
trial court made its ruling. Windsor argues that because an amended petition supersedes
ah prior petitions, see Tex. R. Civ. P. 65, Fleming's motion to dismiss Windsor's original
petition "ceased to be valid" when Windsor amended the petition.

Windsor v. Fleming

Page 34

Fleming's TCPA motion to dismiss, however, was not a motion to dismiss
Windsor's original petition; rather, it was a motion to dismiss all of Windsor's claims
against Fleming. See TEX. Civ. PRAC. & Rem. CODE Ann. §§ 27.001(6) ("'Legal action'
means a lawsuit, cause of action, petition, complaint, cross-claim, or counterclaim or any
other judicial pleading or filing that requests legal or equitable relief."), 27.003(a) ("If a
legal action is based on, relates to, or is in response to a party's exercise of the right of free
speech, right to petition, or right of association, that party may file a motion to dismiss
the legal action." (emphasis added)). And even though Windsor's third amended petition
might have been more detailed and specific than his earlier petitions, Windsor's third
amended petition was generally based on the same allegations and causes of action
against Fleming as in Windsor's earlier petitions. Therefore, Fleming's TCPA motion to
dismiss did not "cease to be valid" when Windsor amended his petition. Issue No. 10 is
overruled.
Issue Nos. 6,11 -18, and 24
In Issue No. 18, Windsor conclusorily contends that the trial court erred in
granting Fleming's TCPA motion to dismiss. Issue Nos. 6,11,12,13,14,15,16,17, and
24, although presented as separate issues, are, in substance, all subparts of Issue No. 18,
the overarching issue. Accordingly, we will address each subpart (Issue Nos. 6,11-17,
and 24) below as we analyze and determine the overarching issue (Issue No. 18).
A.

The TCPA
"The [TCPA] protects citizens who [associate,] petition or speak on
matters of public concern from retaliatory lawsuits that seek to intimidate
or silence them." In re Lipsky, 460 S.W.3d 579, 584 (Tex. 2015). That

Windsor v. Fleming

Page 35

protection comes in the form of a special motion to dismiss, subject to
expedited review, for "any suit that appears to stifle the defendant's"
exercise of those rights. Id. Reviewing a TCPA motion to dismiss requires
a three-step analysis. As a threshold matter, the moving party must show
by a preponderance of the evidence that the TCPA properly applies to the
legal action against it. Tex. CIV. PRAC. & REM. CODE ANN. § 27.005(b). If the
moving party meets that burden, the nonmoving party must establish by
clear and specific evidence a prima facie case for each essential element of
its claim. Id. § 27.005(c). If the nonmoving party satisfies that requirement,
die burden finally shifts back to the moving party to prove each essential
element of any valid defenses by a preponderance of the evidence. Id. §
27.005(d).
Youngkin v. Hines, 546 S.W.3d 675, 679-80 (Tex. 2018).
B.

Standard of Review
We review de novo the trial court's ruling on a motion to dismiss under the TCPA.

Beving v. Beadles, 563 S.W.3d 399, 404 (Tex. App.-Fort Worth 2018, pet. denied). In
reviewing the trial court's ruling, we consider the pleadings and supporting and
opposing affidavits stating the facts on which the liability or defense is based. Id.; see Tex.
Civ. Prac. & Rem. Code Ann. § 27.006(a). We view the pleadings and evidence in the
light most favorable to the nonmovant. Cheniere Energy, Inc. v. Lotfi, 449 S.W.3d 210,21415 (Tex. App.-Houston [14th Dist.] 2014, no pet.).
C.

Step One: The TCPA's Applicability
The TCPA provides that a party may invoke the TCPA dismissal procedure if that

party shows by a preponderance of the evidence that the legal action against it "is based
on, relates to, or is in response to" the party's exercise of the right to speak, petition, or
associate. Tex. Civ. Prac. & Rem. Code Ann. § 27.003(a); see Youngkin, 546 S.W.3d at 680.
Pertinent here, the "exercise of the right of free speech" means "a communication made

Windsor v. Fleming

Page 36

in connection with a matter of public concern." TEX. Civ. PRAC. & Rem. Code Ann. §
27.001(3). A "communication" is broadly defined as "the making or submitting of a
statement or document in any form or medium." Id. § 27.001(1). A "matter of public
concern" includes "an issue related to: (A) health or safety; (B) environmental, economic,
or communiity well-being; (C) the government; (D) a public official or public figure; or (E)
a good, product, or service in the marketplace." Id. § 27.001(7).
In Issue Nos. 11 and 14, Windsor contends that Fleming failed to establish that the
legal action brought against him was based on his exercise of the right of free speech
because Fleming never admitted making any of the alleged defamatory statements that
were the basis of Windsor's claims against Fleming. Windsor further contends in Issue
No. 14 that Fleming failed to establish that the legal action brought against him was based
on his exercise of the right of free speech because Fleming presented no evidence at all
regarding "the facts" of Windsor's defamation claims. We disagree.
The Texas Supreme Court has held that "[w]hen it is clear from the plaintiff's
pleadings that the action is covered by the [TCPA], the defendant need show no more"
to satisfy the first step of the analysis. Hersh v. Tatum, 526 S.W.3d 462,467 (Tex. 2017). In
reaching this holding, the Hersh court expressly stated that it disapproved of the contrary
statements in Pickens v. Cordia, 433 S.W.3d 179 (Tex. App. — Dallas 2014, no pet.), and the
cases that followed Pickens. Hersh, 526 S.W.3d at 467. Fleming was therefore not required
to admit making any of the alleged defamatory statements or to present evidence
regarding "the facts" of Windsor's defamation claims in order for Fleming to have
satisfied the first step of the analysis and to have shown that the TCPA applied to
Windsor v. Fleming

Page 37

Windsor's actions against Fleming, as long as it was clear from Windsor's pleadings that
the actions were covered by the TCPA. See id.
We believe that it was clear from Windsor's pleadings that each of Windsor's
causes of action against Fleming was "based on, relatefd] to, or [was] in response to"
Fleming's alleged "exercise of the right of free speech," i.e., "a communication made in
connection with a matter of public concern." See Tex. Civ. PRAC. & Rem. CODE ANN. §§
27.001(3), 27.003(a). Windsor alleged in his third amended petition that Fleming, together
with the other defendants, made defamatory remarks, i.e., "communications," against
Windsor. See id. § 27.001(1). Furthermore, as explained below, Windsor was a limitedpurpose public figure for purposes of defamation liability, and an issue related to a public
figure is a "matter of public concern." See id. § 27.001(7). We conclude that it was
therefore clear from Windsor's pleadings that Windsor s causes of action were covered
by the TCPA and that Fleming thus needed to "show no more" to satisfy the first step of
the analysis. See Hersh, 526 S.W.3d at 467. Windsor's Issue Nos. 11 and 14 are overruled.
In Issue No. 17, Windsor contends that even if his defamation claim was related to
Fleming's exercise of the right of free speech, the trial court erred in granting Fleming's
TCPA motion to dismiss as to Windsor's causes of action for intentional infliction of
emotional distress, tortious interference with contract or business expectancy, tortious
interference with prospective business relationship, invasion of privacy by
misappropriation, invasion of privacy, invasion of privacy by disclosure, civil conspiracy,
stalking, business disparagement, and conversion because those causes of action were
not related to protection of speech. In Issue No. 24, Windsor further conclusorily asserts,
Windsor v. Fleming

Page 38

without citation to any legal authority, that the TCPA does not allow a conspiracy claim
to be dismissed. We disagree.
First, Windsor's conversion claim was not brought against Fleming; it was brought
against one of the other defendants and therefore is irrelevant as to Fleming. Second, the
TCPA is not limited to defamation causes of action. Instead, the TCPA provides that a
party may file a motion to dismiss any legal action that is based on, relates to, or is in
response to" a party's exercise of the right of free speech, right to petition, or right of
association. Tex. Civ. PRAC. & Rem. CODE Ann. § 27.003(a). All of Windsor's causes of
action against Fleming were "based on, relate[d] to, or [were] in response to" Fleming
making alleged defamatory remarks against Windsor; therefore, the TCPA applied to all
of Windsor's causes of action against Fleming. Issue No. 17 is overruled.
In Issue No. 24, Windsor also contends that the TCPA is not applicable to this case
because the TCPA is about participation in government and this case is not about
participation in government. As just explained, however, all of Windsor s causes of
action against Fleming satisfied the statutory requirements for the TCPA dismissal
procedure to apply to them. Therefore, we conclude drat Fleming satisfied the first step
of the analysis. See Youngkin, 546 S.W.3d at 680. Issue No. 24 is overruled.
D.

Step Two: Clear and Specific Proof of Each Claim
In Issue No. 12, Windsor conclusorily contends that the trial court erred in

no admissible
granting Fleming's TCPA motion to dismiss because Fleming presented

evidence addressing each essential element of Windsor's defamation claims. But once
Fleming met his burden to prove that the TCPA applied, which we just concluded that
Windsor v. Fleming

Page 39

he did, the burden shifted to Windsor to establish by "clear and specific evidence a prima
facie case for each essential element of the claim in question." See Hersh, 526 S.W.3d at
468 (quoting TEX. ClV. PRAC. & REM. CODE ANN. § 27.005(c)). Windsor's Issue No. 12 is
therefore overruled.
We turn to Issue No. 15, in which Windsor contends that he established a prima
facie case for each essential element of his claims against Fleming. Windsor's main claim
against Fleming was for defamation. To prevail on his defamation claim against Fleming,
Windsor would have had to prove that Fleming (1) published a false statement of fact to
a third party, (2) that was defamatory concerning Windsor, (3) with the requisite degree
of fault, and (4) damages, in some cases. See Lipsky, 460 S.W.3d at 593.
"The status of the person allegedly defamed determines the requisite degree of
fault." Id. To prevail on a defamation claim, public officials and public figures must
prove that the defendant published a defamatory falsehood with "actual malice." WFAATV, Inc. v. McLemore, 978 S.W.2d 568, 571 (Tex. 1998). To establish actual malice, the
plaintiff must prove that the defendant published a defamatory statement "with
knowledge that it was false or with reckless disregard of whether it was false or not." Id.
at 573-74 (quoting N.Y. Times Co. v. Sullivan, 376 U.S. 254, 279-80, 84 S.Ct. 710, 726, 11
L.Ed.2d 686 (1964)).
For purposes of defamation liability, public figures fall into two categories: (1) all­
purpose, or general-purpose, public figures and (2) limited-purpose public figures. Id. at
571. The trial court here found that Windsor was a limited-purpose public figure. In
Issue No. 6, Windsor contends that the trial court erred in making such a finding.
Windsor v. Fleming

Page 40

Limited-purpose public figures are public figures only for a limited range of issues
surrounding a particular public controversy. Id. To determine whether an individual is
a limited-purpose public figure, we apply a three-part test: (1) the controversy at issue
must be public both in the sense that people are discussing it and people other than the
immediate participants in the controversy are likely to feel the impact of its resolution;
(2) the plaintiff must have more than a trivial or tangential role in the controversy, and
(3) the alleged defamation must be germane to the plaintiff's participation in the
controversy. Id. Whether a person is a limited-purpose public figure is a question of law
for the cotut to decide. Klentzman v. Brady, 312 S.W.3d 886, 904 (Tex. App. — Houston [1st
Dist.] 2009, no pet.) (citing Rosenblatt v. Baer, 383 U.S. 75, 88, 86 S.Ct. 669, 677,15 L.Ed.2d
597 (1966)).
We begin with whether there is a public controversy and whether Windsor had
more than a trivial or tangential role in the controversy. Windsor asserted in his third
amended petition that he is "an activist fighting dishonesty and injustices of various
types. " The evidence attached to Fleming's response to Windsor's motion to declare that
he is not a public figure or a limited-purpose public figure and the evidence attached to
Fleming's sur-reply to Windsor's reply to Fleming's response further show that Windsor
is an activist against judicial and government corruption.
Windsor asserted in his third amended petition that he has developed a website
called Lawless America in furtherance of his interests. Windsor stated that he has treated
the website "as an online magazine, has hosted an online conference call, and has been
producing and directing a documentary film about injustices of various types." The
Windsor v. Fleming

Page 41

evidence attached to Fleming's TCPA motion to dismiss shows that Windsor had plans
to bring criminal charges against every corrupt government official in America, Windsor
stated that he felt that corrupt judges and government officials who had ignored the U.S.
Constitution should be charged with treason,
revolution organized to save America

Windsor advocated for a "peaceful

// // through the creation of a new political party -

The Revolutionary Party." See id. at 905 ("To determine whether an individual had more
than a trivial or tangential role in the controversy, a court should consider: (1) whether
the plaintiff actively sou ght publicity surrounding the controversy; (2) whether the
plaintiff had access to the media; and (3) whether the plaintiff voluntarily engaged in
activities that necessarily involved the risk of increased exposure and injury to
reputation.") (citing McLemore, 978 S.W.2d at 572-73).
The evidence shows that Windsor's activism and ideas about judicial and
government corruption drew both support and opposition from people across the
country.

The evidence also shows that many people have been impacted by the issues

Windsor has raised and are likely to feel the impact of the resolution of the alleged judicial
and government corruption. Accordingly, we conclude that there is a public controversy
and that Windsor had more than a trivial or tangential role in the controversy.
We therefore turn to whether the alleged defamation was germane to Windsor's
participation in the controversy. See McLemore, 978 S.W.2d at 571. Windsor argues that
the alleged defamation in this case concerns many private personal issues that have
nothing to do with his activism. But Windsor has not identified in his briefing even one
specific statement published by Fleming that addressed Windsor's personal issues instead
Windsor v. Fleming

Page 42

of Windsor's participation in the controversy. Accordingly, we conclude that the trial
court did not err in finding that Windsor was a limited-purpose public figure in this case.
Issue No. 6 is overruled.
As a limited-purpose public figure, to prevail on his defamation claim against
Fleming, Windsor would have had to prove that Fleming published a defamatory
falsehood with "actual malice." See id. Windsor has presented no evidence that Fleming
published a defamatory falsehood with actual malice. Windsor does not even argue as
much in his appellant's brief. We thus conclude that Windsor has failed to satisfy the
second step of the analysis with regard to his defamation claim against Fleming because
Windsor failed to establish by clear and specific evidence a prima facie case for each
essential element of his defamation claim against Fleming. See Youngkin, 546 S.W.3d at
680. This portion of Windsor's Issue No. 15 is overruled.
Furthermore, the only specific claim that Windsor addressed in the trial court and
also addresses in this appeal is his defamation claim against Fleming. Therefore, to the
extent that Windsor contends in Issue No. 15 that he established a prima facie case for
each essential element of his other claims against Fleming, we overrule Issue No. 15 as
inadequately briefed. See Tex. R. App. P. 38.1(i); Martinez, 218 S.W.3d at 844; Strange, 126
S.W.3d at 678.
E.

Step Three: Proof of Each Defense
In Issue No. 16, Windsor contends that Fleming failed to establish a valid defense

to Windsor's claims. Because we have concluded, however, that Windsor failed to satisfy
the second step of the analysis, we need not reach this issue. The burden would have
Windsor v. Fleming

Page 43

shifted back to Fleming to prove each essential element of any valid defenses by a
preponderance of the evidence only if Windsor had satisfied the requirement of
establishing by clear and specific evidence a prima facie case for each essential element
of his claims against Fleming. See TEX. Civ. PRAC. & REM. CODE ANN. § 27.005(c), (d),
Youngkin, 546 S.W.3d at 679-80.
Based on the foregoing, we conclude that the trial court did not err in granting
Fleming's TCPA motion to dismiss. Windsor's Issue No. 18 is overruled. Moreover,
because we have concluded that the trial court did not err in granting Fleming's TCPA
motion to dismiss, we overrule Issue No. 13, in which Windsor contends that the trial
court erred in failing to review all of the pleadings and affidavits instead of just over 500
pages." Any error would be harmless. See Tex. R. App. P. 44.1.
Issue Nos. 19 and 21
In Issue No. 19, Windsor contends that the trial court erred in awarding attorney's
fees, costs, and sanctions to Fleming.
Civil Practice and Remedies Code section 27.009(a) provides:
If the court orders dismissal of a legal action under this chapter, the court
shall award to the moving party:
(1)

court costs, reasonable attorney's fees, and other expenses incurred in
defending against the legal action as justice and equity may require,
and

(2)

sanctions against the party who brought the legal action as the court
determines sufficient to deter the party who brought the legal action
from bringing similar actions described in this chapter.

Windsor v. Fleming

Page 44

TEX. Civ. Prac. & REM. Code Ann. § 27.009(a). We review the trial court's award of
attorney's fees and sanctions for an abuse of discretion. Sullivan v. Abraham, 488 S.W.3d
294,299 (Tex. 2016); Landry's, Inc. v. Animal Legal Def. Fund, 566 S.W.3d 41,70 (Tex. App. Houston [14th Dist.] 2018, pet. filed).
Windsor first argues in this issue that the trial court erred in awarding attorney s
fees and costs to Fleming because there was no competent proof of attorney's fees and
costs ever admitted as evidence at the hearing on this matter. Windsor next argues that
he was not given meaningful notice and a meaningful opportunity to be heard on this
issue.
In the trial court's November 28, 2014 letter to the parties announcing its
"memorandum ruling" in connection with Fleming's TCPA motion to dismiss, the trial
court gave notice to the parties that it would be conducting a hearing "(i) to enter the
dismissal order; and (ii) to review all evidence on file in support of... CPRC Section 27.009
relief..., along with all related legal analysis and arguments from both sides." [Emphasis
added.] The trial court then set the following pleading schedule for the hearing:
•

Fleming - all supplemental pleadings and evidence must be filed and
served on or before Wednesday, December 3, 2014,

•

Windsor - any regular or supplemental written response must be filed
and served on or before Thursday, December 4, 2014;

•

Fleming - any final written reply must be filed and served on or before
December 5, 2014.

[Emphasis added.] During the trial court's December 18, 2014 hearing on Fleming's
motion for entry of order and assessment of attorney's fees, court costs, and sanctions,

Windsor v. Fleming

Page 45

Fleming's counsel then stated that she had "submitted, as Exhibit A [to her December 3,
2014 supplemental motion for costs, expenses, attorney's fees, and sanctions in support
of Fleming's TCPA motion to dismiss, her] sworn affidavit setting forth [her]
qualifications and experience as an attorney." Fleming's counsel further stated that
"[a]ttached to Exhibit A is [her] 44 pages of billing records so that the Court and Mr.
Windsor could see every single entry [she] made on this case." Fleming's counsel then
moved on to the matter of sanctions, at which point the trial court asked Fleming s
counsel, "Do you have affidavits on this point?" Fleming's counsel replied that she had
also filed the evidence regarding the matter of sanctions as exhibits to Flemings
December 3, 2014 supplemental motion, and the trial court replied, "I just want[ed] to
make sure I was procedurally on board ....
Windsor never objected to the procedure used by the trial court of considering the
evidence that Fleming filed as exhibits to his December 3, 2014 supplemental motion
without formally introducing the exhibits into evidence, Windsor therefore failed to
preserve his complaint for appellate review. See Tex. R. App. P. 33.1(a); Cruz v. Van Sickle,
452 S.W.3d 503, 520-21 (Tex. App.-Dallas 2014, pet. denied). It is also clear from the
foregoing that Windsor was given meaningful notice and a meaningful opportunity to be
heard on this issue; therefore, his argument is overruled.
Windsor next argues in Issue No. 19 that Fleming has "incurred" no court costs,
reasonable attorney's fees, or other expenses because they have been incurred by
Fleming's insurer rather than Fleming himself. However, that Fleming had previously
contracted with an insurer to pay some or all of his court costs, attorney's fees, or other
Windsor v. Fleming

Page 46

expenses does not mean that Fleming did not incur them. See Aviles v. Aguirre, 292 S.W.3d
648, 649 (Tex. 2009) (per curiam). Windsor's argument therefore fails and is overruled.
Windsor also argues in Issue No. 19 that there was no evidence to show what
amount of the alleged fees were applicable specifically to the TCPA motion. But by
failing to complain at the hearing on attorney's fees about any failure to segregate
attorney's fees, Windsor has failed to preserve this complaint for our review. See Tex. R.
App. P. 33.1(a).
Finally, Windsor argues in Issue No. 19 that the amount of sanctions awarded was
"utterly outrageous" and that the trial court improperly based its award of sanctions on
alleged activity in cases outside Texas,

In Issue No. 21, Windsor also conclusorily

contends that Fleming failed to establish by a preponderance of the evidence that
Windsor had significant assets to enable him to pay sanctions. This portion of Issue No.
19 and Issue No. 21 contain no citations to legal authorities. We therefore overrule this
portion of Issue No. 19 and Issue No. 21 as inadequately briefed. See Tex. R. App. P. 38.1(i);
Martinez, 218 S.W.3d at 844.
Issue No. 20
In Issue No. 20, Windsor contends that the trial court erred in granting Fleming's
motion to sever all the claims Windsor brought against him into a new cause number
because the trial court did not have jurisdiction to do so. For the reasons stated in Issue
No. 3, however, we have determined that the trial court did have jurisdiction. Windsor s
Issue No. 20 is overruled.

Windsor v. Fleming

Page 47

Issue No. 22
In Issue No. 22, Windsor first contends that the Honorable Judge Grubbs erred in
making findings of fact and conclusions of law on March 31, 2015 because he was "not
the judge in the case" and "knew nothing about the matter." But Windsor's "argument
is simply a conclusory assertion without citation to any legal authorities or to the record.
We therefore overrule this portion of Windsor's Issue No. 22 as inadequately briefed. See
TEX. R. App. P. 38.1(i); Martinez, 218 S.W.3d at 844.
Windsor also contends in Issue No. 22 that the Honorable Judge Grubbs erred in
making findings of fact and conclusions of law on March 31, 2015 because the case had
been dismissed and was on appeal. But, even when the trial court files belated findings
of fact and conclusions of law, the late filing is not reversible error unless the complaining
party shows that the error caused harm. See Robles v. Robles, 965 S.W.2d 605, 610-11 (Tex.
App. - Houston [1st Dist.] 1998, pet. denied). Windsor does not allege any specific harm.
Accordingly, this remaining portion of Windsor's Issue No. 22 is overruled.
Issue No. 23
In Issue No. 23, Windsor contends that the trial court denied his constitutional
rights and due process. More specifically, Windsor complains that his constitutional
rights were violated because he was required to deal with this litigation while
"incarcerated in. the Ellis County Jail." However, as our sister court stated in Hosey v. Cty.
of Victoria, 832 S.W.2d 701 (Tex. App. - Corpus Christi 1992, no writ):
One has a right to represent oneself in civil litigation in Texas courts.
However, if one does so, the litigant cannot disregard the rules of procedure
that insure due process to all litigants and provide for the orderly
Windsor v. Fleming

Page 48

administration of justice. Indeed, one's personal circumstances may
prevent his personal appearance in court for hearings or trial in the
ordinary course of proceedings. His inability to attend proceedings and
otherwise personally participate in the trial of the case does not require the
court to continue the action for the convenience of the litigant. Whether to
continue the case on the docket and pass a setting for trial is within the
sound discretion of the trial judge. Similarly, if a case is called for trial and
no appearance is made, the action is subject to dismissal. Circumstances,
such as imprisonment, may make it impossible for a litigant to represent
himself. When that is so, counsel is required, at the peril of losing the
opportunity, to litigate the grievance.
Id. at 705. Windsor's Issue No. 23 is therefore overruled.
Issue No. 25
In Issue No. 25, Windsor contends that he is a victim of judicial corruption.
Windsor's briefing of this issue includes merely conclusory statements unsupported by
appropriate citations to legal authorities and to the record. We therefore overrule Issue
No. 25 as inadequately briefed. See Tex. R. App. P. 38.1(i); Martimz, 218 S.W.3d at 844.
Conclusion
The trial court's "Order Granting Defendant Sean D. Fleming's Anti-SLAPP
Motion to Dismiss and Judgment Awarding Costs, Expenses, Attorney s Fees and
Sanctions in Favor of Sean Fleming Against William Windsor," signed on December 18,
2014, is affirmed.

REX D. DAVIS
Justice

Windsor v. Fleming

Page 49

Before Chief Justice Gray,
Justice Davis, and
Justice Neill
(Chief Justice Gray concurring with opinion)
Affirmed
Opinion delivered and filed August 7,2019
[CV06]

Windsor v. Fleming

Page 50

Appendix
B

" ' UR R£r
ORO
*0EC!9
W 9: 32

■Tv/i
CAUSE NO. 88611
WILLIAM M. WINDSOR
V.
JOEYISALITTLEKID,
MEGAN VAN ZELFDEN,
JOEYISALITTLEKID.BLOGSPOT.COM,
BRANNON BRIDGE, CURTIS
BUTLER, SEAN D. FLEMING
ALBERT J. FIORINI, JEFF SWINEY,
LISA JONES, SAM ROUND,
AND JOEY DOES 1-100

§
§
§
§
§
§
§
§
§
§
§
§

h

couhty^

40™ JUDICIAL DISTRICT

ELLIS COUNTY, TEXAS

AND SANCTIONS IN FAVOR OF SEAN FLEMING AGAINST WILLIAM WINDSOR
On November 20, 2014, came on to be heard Defendant Sean D. Flemings
Motion to Dismiss, and on December/8, 2014, came to be heard Defendant Sean D.
Fleming’s Supplemental Motion for Costs, Expenses, Attorney’s Fees, and Sanctions in
Support of his Motion to Dismiss, Defendant’s Motion to Dismiss was filed and served
on February 24, 2014. On March 10, 2014, this Court stayed the underlying litigation
and all legal deadlines. On August 11, 2014, the Court lifted the stay, and all legal
deadlines thereafter continued to accrue. The Court granted limited discovery pursuant
to Sections

27.006(b) and 27.004(c) of the Texas Civil Practice and Remedies Code

and extended the hearing date for the Motion to Dismiss to November 20 , 2014, which
was within

120 days after the Motion was filed excluding the duration of the stay.

During and after the hearing on November 20, 2014, the Court considered the
Defendant’s

Motion to Dismiss and all responses and replies, live testimony, and over

500 pages of documents on file

including, without limitation, various pleadings.

affidavits, exhibits, and appellate court cases. After considering the motion, responses,
-9-

V

arguments and evidence, the Court finds that Defendant Sean Fleming, has shown by
a preponderance of the evidence that the legal action brought by Plaintiff is based on,
relates to, and is in response to Defendant’s exercise of his right of free speech.
Furthermore

the Court finds that Plaintiff has failed to establish by clear and specific

evidence a prima facie case for each essential element of all of his claims against
Defendant Fleming. Moreover, the Court finds that Defendant Fleming has established
by a preponderance of evidence a valid defense to Plaintiff s claims.
On December |8, 2014, the Court considered the Defendant’s Supplemental
Motion for Costs,

Expenses, Attorney’s Fees, and Sanctions in Support of his Motion to

Dismiss, as well as any responses and replies, the testimony of Defendant s counsel,
affidavits, and other records. After considering such arguments and evidence , the Court
finds that Defendant Fleming has accrued $ 3,
$ 77

in costs and expenses, and

^treasonable and necessary attorney's fees in defending against this legal

action. Furthermore, the Court finds based on testimony, the arguments of counsel,
affidavits, and other evidence, that sanctions are appropriate against the Plaintiff in
to deter him from bringing similar actions in the future. The Court finds that the
order
Plaintiff has engaged in extensive vexatious and abusive litigation in the past which has
resulted in several injunctions and sanctions being imposed against him . The Court also
finds that Plaintiff has significant financial assets which have enabled him to engage in
significant sanction award against Plaintiff is
the foregoing conduct. As such, a
warranted and necessary to deter him trom bringing similar abusive actions in the
future. It is, therefore,
ORDERED, ADJUDGED

and DECREED that Defendant’s Motion to Dismiss

-10-

and Supplemental Motion for Costs, Expenses, Attorney's Fees, and Sanctions in
Support of his Motion to Dismiss are hereby granted; that all of Plaintiff's claims against
Defendant Sean Fleming are dismissed with prejudice; that Plaintiff shaft be required to
pay Defendant Sean Fleming expenses and costs of $
and necessary attorney's fees of $7j 5S&

reasonable

incurred in defending against this legal

action; and that Plaintiff shall be ordered to pay Defendant Sean Fleming sanctions in
the amount of £ H!)0/)Dd 1o deter Plaintiff from bringing such actions in the future. It
is further,
ORDERED, ADJUDGED and DECREED that post-judgment interest on the
above amounts will accrue at the rate of 5.0% per year until paid. It is further,
ORDERED, ADJUDGED and DECREED that Defendant Sean Fleming is
entitled to enforce this judgment through abstract, execution, and any other process
necessary.
SIGNED this the 12

r&
2014.

day of

JUDGE PRESIDING

- ll -

APPROVED AS TO FORM AND SUBSTANCE:
GERMER PLLC
By:
BARBARA L. HACHENBURG
State Bar No. 08667070
Three Allen Center
333 Clay Street, Suite 4950
Houston, Texas 77002
(713) 650-1313 - Telephone
(713) 739-7420 - Facsimile

ATTORNEY FOR DEFENDANT,
SEAN D. FLEMING

- 12-

Appendix
C

2020.TX.0014627< http://www.versuslaw.com>
WILLIAM M. WINDSOR
v.
SEAN D. FLEMING;
No. 20-0155
Supreme Court of Texas
October 9,2020
From Ellis County; 10th Court of Appeals District (10-14-00392-CV,__ S.W.3d

, 08-07-19)

ORDER ON PETITION FOR REVIEW
THIS PETITION FOR REVIEW IS DENIED
Motion to supplement record dismissed as moot requests to take judicial notice dismissed as moot

©2020 VersusLaw, Inc., format, enhancements and compilation.

Appendix
D

2020.TX.0015502< http://www.versuslaw.com>
WILLIAM M. WINDSOR
v.
SEAN D. FLEMING;
No. 20-0155
Supreme Court of Texas
December 18, 2020
From Ellis County; 10th Court of Appeals District (10-14-00392-CV,___S.W.3d----- , 08-07-19)
ORDER ON MOTION FOR REHEARING
THE MOTION FOR REHEARING OF THIS PETITION FOR REVIEW IS DENIED

©2020 VersusLaw, Inc., format, enhancements and compilation.

Appendix
E

Page 361

TITLE 2&—JUDICIARY AND JUDICIAL PROCEDURE

United States unless the matter in controversy
exceeds $10,000, exclusive of interest and costs.
(c) A civil action in any State court arising
under the workmen’s compensation laws of such
State may not he removed to any district court
of the United States.
(d) A civil action in any State court arising
under section 40302 of the Violence Against
Women Act of 1994 may not be removed to any
district court of the United States.
(June 25, 1948, ch. 646, 62 Stat. 939; Pub. L. 85-554,
§5, July 25, 1958, 72 Stat. 415: Pub. L. 95-473,
§ 2(a)(3)(A), Oct. 17, 1978, 92 Stat. 1465; Pub. L.
95-486, §9(b), Oct. 20, 1978, 92 Stat. 1634; Pub. L.
103-322, title IV, §40302(e)(5), Sept. 13, 1994, 108
Stat. 1942; Pub. L. 104r-88, title III, § 305(b), Dec.
29, 1995. 109 Stat. 944; Pub. L. 104-287, §3, Oct. 11,
1996, 110 Stat. 3388.)

§1446

Effective Date of 1995 amendment
Amendment by Pub. L. 101—88 effective Jan. 1, 1996,
see section 2 of Pub. L. 101-88, set out as an Effective
Date note under section 701 of Title 49. Transportation.
Effective Date of 1958 amendment
Amendment by Pub. D. 85-554 applicable only in the
case of actions commenced after July 25. 1958, see sec­
tion 3 of Pub. L. 85-554, set. out as a note under section
1331 of this title.
§ 1446. Procedure for removal

(a) A defendant or defendants desiring to remove any civil action or criminal prosecution
from a State court shall file in the district court
of the United States for the district and division
within which such action is pending a notice of
removal signed pursuant to Rule 11 of the Fed­
eral Rules of Civil Procedure and containing a
short and plain statement of the grounds for re­
HlSTORICAL AND REVISION NOTES
moval, together with a copy of all process,
pleadings, and orders served upon such defend­
Based on title 28, U.S.C., 1940 e<l., §71 (Mar. 3,1911, ch.
ant or defendants in such action.
231, §28, 36 Stat. 1094; Jan. 20. 1914, ch. 11, 38 Stat. 278;
(b) The notice of removal of a civil action or
Jan. 31, 1928, ch. 14, §1, 15 Stat. 54).
The words “or its receivers or trustees" were inserted proceeding shall be filed within thirty days after
in both subsections to make clear that nonremovable
the receipt by the defendant, through service or
actions against a carrier do not become removable
otherwise, of a copy of the initial pleading set­
under section 1442 of this title when filed against court
ting forth the claim for relief upon which such
receivers or trustees.
This was the unquestioned rule prior to the act of action or proceeding is based, or within thirty
days after the service of summons upon the de­
Aug. 23, 1916, ch. 399, 39 Stat. 532, amending section 76
of title 28, U.S.C., 1940 ed„ and permitting removal of fendant if such initial pleading has then been
filed in court and is not required to be served on
actions against officers of United States courts. The
cases are in conflict as to whether under that amend­
the defendant, whichever period is shorter.
ment the case becomes removable when the carrier is
If the case stated by the initial pleading is not
in receivership or undergoing reorganization. The re­
removable, a notice of removal may be filed
vised section resolves the conflict by denying the right within thirty days after receipt by the defend­
of removal to receivers and trustees where it would be
ant, through service or otherwise, of a copy of
nonexistent if the carrier were the party defendant.
an amended pleading, motion, order or other
Thus the subject matter rather than legalistic distinc­
paper from which it may first be ascertained
tions as to the identity of the parties is made deter­
that the case is one which is or has become re­
minative consideration.
A reference in section 71 of title 28, U.S.C., 1940 ed..
movable, except that a case may not be removed
to sections 51-59 of title 45, U.S.C., 1940 ed.. Railroads,
on the basis of jurisdiction conferred by section
was changed to “51-60.” Such sections 51-59 embraced
1332 of this title more than 1 year after com­
all of chapter 2 of said title 45 when the law on which mencement of the action.
such section 71 is based was enacted, but a new section
(c)(1) A notice of removal of a criminal pros­
(60) was added in 1939.
Other provisions of section 71 of title 28, U.S.C., 1940 ecution shall be filed not later than thirty days
after the arraignment in the State court, or at
ed.. appear In section 1441 of this title.
Changes were made in phraseology.
any time before trial, whichever is earlier, except that for good cause shown the United
REFERENCES IN TEXT
States district court may enter an order grant­
Section 40302 of the Violence Against Women Act of ing the defendant or defendants leave to file the
1994, referred to in subsec. id), is classified to section
notice at a later time.
13981 of Title 42, The Public Health and Welfare.
(2) A notice of removal of a criminal prosecu­
tion shall include all grounds for such removal.
Amendments
A failure to state grounds which exist at the
1996—Subsec. (a). Pub. L. 104-287 substitute_d “sec­
time of the filing of the notice shall constitute
tions 1—4 and 5-10 of the Act of April 22, 1908 (45 U.S.C.
a waiver of such grounds, and a second notice
51-54, 55-60)” for “sections 51-60 of Title 45”.
may be filed only on grounds not existing at the
1995—Subsec. (b). Pub. L. 104-88 substituted “carrier”
time of the original notice. For good cause
for “common carrier” and “11706 or 14706” for “11707”.
shown, the United States district court may
1994—Subsec. (d). Pub. L. 103-322 added subsec. (d).
grant relief from the limitations of this para­
1978—Subsec. (b). Pub. L. 95^86 substituted “S10.000”
graph.
for "$3,000”.
,
(3) The filing of a notice of removal of a crimi­
Pub. L. 95-473 substituted “section 11707 of title 49“
nal prosecution shall not prevent the State
for “section 20 of Title 49”.
1958_Pub. L. 85-554 substituted “Nonremovable ac­
court, in which such prosecution is pending from
tions” for “Carriers; nonremovable actions" in section proceeding further, except that a judgment of
catchline and added subsec. (c).
conviction shall not be entered unless the pros­
ecution is first remanded.
Effective Date of 1996 amendment
(4) The United States district court in which
Amendment by Pub. L. 104-287 effective July 5, 1994,
such notice is filed shall examine the notice
section
8(11
of
Pub.
L.
104-287,
set
out
as
a
note
see
promptly. If it clearly appears on the face of the
under section 5303 of Title 49, Transportation.

trees?e

§1446

TITLE 28—JUDICIARY AND JUDICIAL PROCEDURE

Page 362

U.S.C., 1940 ed. As thus revised, the section will give
adequate time and operate uniformly throughout the
Federal jurisdiction. The provisions of sections 74 and
76 of title 28, U.S.C., 1940 ed., for filing at any time "be­
fore trial or final hearing" in civil rights cases and
cases involving revenue officers, court officers and offi­
cers of either House of Congress were omitted.
Subsection (c) embodies the provisions of sections 74
and 76 of title 28, U.S.C.. 1940 ed.. for filing the removal
petition before trial and makes them applicable to all
criminal prosecutions but not to civil actions. This pro­
vision was retained to protect Federal officers enforc­
ing revenue or criminal laws from being rushed to trial
in State courts before petition for removal could be
filed. Words “or final hearing” following the words “be­
fore trial,” were omitted for purposes of clarity and
simplification of procedure.
The provision of said section 76 of title 28, U.S.C.. 1940
ed., for certificate of counsel that he has examined the
proceedings and carefully inquired into all matters set
forth in the petition and believes them to be true, was
omitted as unnecessary and inconsistent with Rule 11
of the Federal Rules of Civil Procedure.
Subsection id) is derived from sections 72 and 74 of
title 28, U.S.C., 1940 ed., but the requirement for cost
bond is limited to civil actions in conformity with the
more enlightened trend of modern procedure to remove
all unnecessary impediments to the administration of
criminal justice. Provisions of said section 72 as to the
conditions of the bond were rewritten because inappro­
priate when the petition for removal is filed in the Fed­
eral court.
Subsection (e) provides for notice to the adverse par­
ties and for the filing in the State court of a copy of
the petition for removal in substitution for the require­
ments of sections 72 and 74 of title 28, U.S.C., 1940 ed.,
for the filing of the removal petition in the State court.
The last sentence of subsection (e) is derived from sec­
tions 72, 74 and 76 of title 28, U.S.C., 1940 ed.
Subsection (f) is derived from sections 75 and 76 of
title 28, U.S.C., 1940 ed.
Since the procedure in removal cases is now governed
by the Federal Rules of Civil Procedure [Rule 81(c)] and
Federal Rules of Criminal Procedure [Rule 54(b)]. the
detailed directions of the various sections with respect
to such procedure were omitted as unnecessary.
Thus the provision of section 72 of title 28, U.S.C.,
1940 ed., with respect to appearance, special bail and fil­
ing the record were omitted as covered by the Federal
Rules of Civil Procedure, Rules 64, 81(c).
The provisions of section 74 of title 28. U.S.C.. 1940
ed., as to the effect of security and other proceedings
and remedies in the State court were omitted as cov­
ered by section 1450 of this title.
The requirements of section 74 of title 28, U.S.C., 1940
HISTORICAL AND REVISION NOTES
ed.. that t.he clerk of the State court shall furnish cop­
1948 ACT
ies of pleadings and proceedings to the petitioner and
that the petitioner shall file the same in the district
Based on title 28, U.S.C., 1940 ed.. §§72, 74, 75, 76 (May
court are covered by section 1447 of this title.^
3, 1911, ch. 231, §§29, 31, 32. 33, 36 Stat. 1095, 1097; Aug.
The provisions of section 74 of title 28, U.S.C., 1940
23. 1916, ch. 399, 39 Stat. 532: July 30. 1977, Pub. L. 95-78.
ed.. requiring the adverse parties to plead anew in the
§3, 91 Stat. 321.)
district
court were omitted as unnecessary in view of
Section consolidates portions of sections 74, 75, and 76
Federal Rules of Civil Procedure. Rule 81(c). The last
with section 72 of title 28, U.S.C., 1940 ed., with impor­
sentence of such section was omitted as covered by sectant changes of substance and phraseology.
Subsection ;a). providing for the filing of the removal
tion 1447(d) of this title,
petition in the district court, is substituted for the re1949 AcT
ed!* that* the petition be fHed’i^the State court. This
Subsection (b) of section 1446 °f
conforms to the method prescribed by section 76 of title
vised, has been found to create difficult! in those
28. U.S.C.. 1940 ed., and to the recommendation of States, such as New York, where suit is comm
?
nrtited States District Judges Calvin W. Chesnut and T.
the service of a summons and the plaintiff s initial
Waties Warring approved by the Committee of the Ju- pleading is not required to be served or filed until later.
luviion Of the judicial Code.
The first paragraph of the amendment to subsection
Subsection (b) makes uniform t.he time for filing peti- <b) corrects this situation by ^1^s,lf0ard^g
tions to remove all civil actions within twenty days tion for removal need not be
f
mi.
after commencement of action or service of process the defendant has received a copy of the plaintiff
tial pleading.
,
,
whichever is later, instead of “at any time before the
This provision, however, without more, would create
defendant is required by the laws of the State or the
further difficulty in those States, such as Kentucky,
rule of the State court in which such suit is brought to
where suit is commenced b5r the filing of the plaintiff s
answer or plead” as required by section 72 of title 28.

notice and any exhibits annexed thereto that re­
moval should not be permitted, the court shall
make an order for summary remand.
(5) If the United States district court does not
order the summary remand of such prosecution,
it shall order an evidentiary hearing- to be held
promptly and after such hearing shall make
such disposition of the prosecution as justice
shall require. If the United States district court
determines that removal shall be permitted,, it
shall so notify the State court in which prosecu­
tion is pending, which shall proceed no further.
(d) Promptly after the filing of such notice of
removal of a civil action the defendant or de­
fendants shall give written notice thereof to all
adverse parties and shall file a copy of the no­
tice with the clerk of such State court, which
shall effect the removal and the State court
shall proceed no further unless and until the
case is remanded.
(e) If the defendant or defendants are in actual
custody on process issued by the State court,
the district court shall issue its writ of habeas
corpus, and the marshal shall thereupon take
such defendant or defendants into his custody
and deliver a copy of the writ to the clerk of
such State court.
(f) With respect to any counterclaim removed
to a district court pursuant to section 337(c) of
the Tariff Act of 1930. the district court shall re­
solve such counterclaim in the same manner as
an original complaint under the Federal Rules
of Civil Procedure, except that the payment of a
filing fee shall not be required in such cases and
the counterclaim shall relate back to the date of
the original complaint in the proceeding before
the International Trade Commission under sec­
tion 337 of that Act.
(June 25. 1948, ch. 646, 62 Stat. 939: May 24. 1949,
ch. 139, §83. 63 Stat. 101; Pub. L. 89-215, Sept. 29,
1965. 79 Stat. 887; Pub. L. 95-78. §3. July 30, 1977,
91 Stat. 321; Pub. L. 100-702, title X. § 1016(b),
Nov. 19. 1988, 102 Stat. 4669; Pub. L. 102-198,
§ 10(a), Dec. 9, 1991, 105 Stat. 1626; Pub. L. 103-465,
title in. §321(b)(2), Dec. 8. 1994, 108 Stat. 4946;
Pub. L. 104-317, title VI, §603, Oct. 19, 1996, 110
Stat. 3857.)

Page 363

TITLE 28—JUDICIARY AND JUDICIAL PROCEDURE

initial pleading and the issuance and service of a sum­
mons without any requirement that a copy of the
pleading be served upon or otherwise furnished to the
defendant. Accordingly the first paragraph of the
amendment provides that in such cases the petition for
removal shall be filed within 20 days after the service
of the summons.
The first paragraph of the amendment conforms to
the amendment of rule 81(c) of the Federal Rules of
Civil Procedure, relating to removed actions, adopted
by the Supreme Court on December 29, 1948, and re­
ported by the Court to the present session of Congress.
The second paragraph of the amendment to sub­
section (b) is intended to make clear that, the right of
removal may be exercised at a later stage of the case
if the initial pleading does not state a removable case
but its removability is subsequently disclosed. This is
declaratory of the existing- rule laid down by the deci­
sions. (See for example, Powers v. Chesapeake etc., Ry.
Co.. 169 U.S. 92.)
In addition, this amendment clarifies the intent of
section 1446(e) of title 28, U.S.C., to indicate that notice
need not be given simultaneously with the filing, but
may be given promptly thereafter.
REFERENCES IN TEXT

The Federal Rules of Civil Procedure, referred to in
subsecs, (a) and (f), are set out in the Appendix to this
title.
Section 337 of the Tariff Act of 1930, referred to in
subsec. (f), is classified to section 1337 of Title 19, Cus­
toms Duties.
AMENDMENTS

1996—Subsec. (c)(1). Pub. L. 104-317 substituted “de­
fendant or defendants” for “petitioner”.
199,1—Subsec. (f). Pub. L. 103-465 added subsec. (f).
1991—Subsec. (c)(1). Pub. L. 102-198, § 10(a)(1), (4), sub­
stituted “notice of' for “petition for” and “the notice”
for “the petition”.
Subsec. (0(2). Pub. L. 102-198, § 10(a)(1), (4), sub­
stituted -‘notice of” for “petition for” and substituted
“notice” for -‘petition” in three places.
Subsec. (0(3). Pub. L. 102-198, § 10(a)(1), (2), sub­
stituted -‘notice of ’ for “petition for” and “prosecution
is first remanded" for “petition is first denied".
Subsec. (c)(4), (5). Pub. L. 102-198, § 10(a)(3), added
pars. (4) and (5) and struck out former pars. (4) and (5)
which read as follows:
“(4) The United States district court to which such
petition is directed shall examine the petition prompt­
ly. If it clearly appears on the face of the petition and
any exhibits annexed thereto that the petition for re­
moval should not be granted, the court shall make an
order for its summary dismissal.
“(5) If the United States district court does not order
the summary dismissal of such petition, it shall order
an evidentiary hearing to he held promptly and after
such hearing shall make such disposition of the peti­
tion as justice shall require. If the United States dis­
trict court determines that such petition shall be
granted, it shall so notify the State court in which
prosecution is pending, which shall proceed no fur­
ther.”
Subsec. (d). Pub. L. 102-198, §l0(a)d), (4), (5), substituted “notice of removal” for “petition for the re­
moval”. struck out "and bond” after “civil action”,
and substituted “notice with” for “petition with".
1988—Subsec. (a). Pub. L. 100-702, §1016(b)fl), amended
subsec. (a) generally. Prior to amendment, subsec. (a)
read as follows: “A defendant or defendants desiring to
remove any civil action or criminal prosecution from a
State court shall file in the district court of the United
States for the district and division within which such
action is pending a verified petition containing a short
and plain statement of the facts which entitle him or
them to removal together with a copy of all process,
pleadings and orders served upon him or them in such
action.”

§1447

Subsec. <b). Pub. L. 100-702, §1016(b)(2), substituted
“notice of removal” for “petition for removal” in two
places and inserted before period at end of second par.
except that a case may not be removed on the basis
of jurisdiction conferred by section 1332 of this title
more than 1 year after commencement of the action”.
Subsecs, (d) to (f). Pub. L. 100-702, §1016(b)(3), redesig­
nated subsecs, (el and (0 as (dl and (e), respectively,
and struck out former subsec. (d) which read as follows:
“Each petition for removal of a civil action or pro­
ceeding-, except a petition in behalf of the United
States, shall be accompanied by a bond with good and
sufficient surety conditioned that the defendant or de­
fendants will pay all costs and disbursements incurred
by reason of the removal proceedings should it be de­
termined that the case was not removable or was im­
properly removed.”
1977—Subsec. (c). Pub. L. 95-78. §3(a), designated ex­
isting provisions as par. (.1), set a period of 30 days as
the maximum allowable time prior to commencement
of trial and following arraignment during which time a
petition for removal can be filed, provided for the grant
of additional time for good cause shown, and added
pars. (2) to (5).
Subsec. (e). Pub. L. 95-78, §3(b), inserted “for the re­
moval of a civil action” after “filing- of such petition”.
1965—Subsec. (b). Pub. h. 89-215 substituted “thirty
days” for “twenty days” wherever appearing.
1949—Subsec. (b). Act May 24, 1949, §83(a). provided
that the petition for removal need not be filed until 20
days after the defendant has received a copy of the
plaintiffs initial pleading, and provided that the peti­
tion for removal shall be filed within 20 days after the
service of summons.
Subsec. (e). Act May 24, 1949, §83(b), indicated that
notice need not he given simultaneously with the fil­
ing, but may he made promptly thereafter.
Effective Date of 1994 amendment
Amendment by Pub. L. 103-465 applicable with re­
spect to complaints filed under section 1337 of Title 19,
Customs Duties, on or after the date on which the.
World Trade Organization Agreement enters into force
with respect to the United States [Jan. 1, 1995], or in
cases under section 1337 of Title 19 in which no complaint is filed, with respect to investigations initiated
under such section on or after such date, see section 322
of Pub. L. 103-465, set out as a note under section 1337
of Title 19.
Effective date of 1977 amendment
Amendment by Pub. L. 95-78 effective Oct. 1, 1977, see
section 4 of Pub. L. 95-78, set out as an Effective Date
of Pub. L. 95-78 note under section 3771 of Title 18,
Crimes and Criminal Procedure.
Section referred to in Other Sections
This section is referred to in sections 1441,1447 of this
title: title 19 section 3473: title 22 sections 283gg. 290i-7.
290k-9, 290m; title 25 sections 487, 610c. 642, 670; title 42
sections 2210, 14616.
.

proce(jure after removal generally

(a) In any case removed from a State court,
the district court may issue all necessary orders

and process to hring before it all proper parties
whether served by process issued by the State
court or otherwise.
(b) It may require the removing party to file
with its clerk copies of all records and pro­
ceedings in such State court or may cause the
same to be brought before it by writ of certio­
rari issued to such State court.
(c) A motion to remand the case on the basis
of any defect other than lack of subject matter
jurisdiction must be made within 30 days after
the filing of the notice of removal under section

Appendix
F

■cv^ WI. vy/ov/ty^V UJL,\JC. rtlVI UL». I

1.01 C

CLOSED^ROSE

U.S, District Court
/

;
(Cmim DMaien)
i CIVIL DOCKET FOR CASE #: 3;14-cv-03020-RAL

SSSt uV,

: ..DateFiled: 12/24/2014

378th Judicial District Court Ellis County, . Nature of Suit;360 Tofts: Personal Injury
TX, Cause No. 88611
, - Other Personal Injury
Cause: 28:1331 Fed. Question '
Jurisdiction: Federal Question
Plaintiff
William M. Windsor

V.
Defendant

represented by William M. Windsor
PO Box 1060
Wildwood, FL 34785
770-578-1094 1
.PRQ.SE

•

Joey is a Little Kid
Date Filed

#

Docket Text

12/24/2014

1 COMPLAINT (Notice of Reinoval), filed by William M. Windsor. (Attachments: #1
Postmarked envelope 12/19/14) (SAT) (Entered: 12/29/2014)
V ..
.

12/29/2014

2

01/08/2015.

2-:J NOTICE of Change of Address by Wiliiajn M. Windsor (Attachments: # 1 Envelope
' postmarked 1/5/15XSKK) (Entered: 01/08/2015)

01/09/2015

d MOTION to Amend to Name Additional Defendants re: 1 Complaint by; William M.
Windsor. (Attacbments: # i Envelope postmarked l/7/T5)(SKK) (Entered:
01/09/2015)
,
, • :
.

01/09/2015

2 MOTION to Declare Invalid Any and All Post-Removal Action in F,11is County Texas
by William M. Windsor (SKK) (Entered: 01/09/2015) .:
- • ;

Letter from Clerk's Office re: opening of new case arid enclosing a pro se packet
.
. ■ . .1
(SAT) (Entered: 12/29/2014)

'™‘

.

................. "...........

*

1

'

.

■

' ——

..................................................

01/16/2015

&

01/29/2015

2 Filing fee received: Fee Amount: $400.00, Receipt No.: #SDX3000G2339. (DLC)
(Entered: 01/29/2015)

01/29/2015

8

CIVIL COVER SHEET. (Attachments:.#! Copy of Ehvelope dated 01/27/15) (DLC)
(Entered: 01/29/2015) .
’ '■■-/" , . /; y ■ • ■ , ,;

0 i/29/2015

2

03/09/2015

m

ORDER DISMISSING PROCEEDING. Signed by U.S. District Judge Roberto A. .
:
Lange on 01/28/2015. (SAT) (Entered: 01/29/2015). .
'
NOTICE OF APPEAL as to£ Order Dismissing Caise by William M. Windsor and
Notice^Of change of address (Attachments: # i’Postmarkeid Envelope (3/2/15)XSAT)

03/09/2015

u

03/17/2015

12

Mail Returned as Undeliverable. Mail sent to William M. Windsor 2 Letter and pro se
packet which was resent on 1/6/15. (SKK) (Entered-01/16/2015) •
, . ;

TRANSMITTAL of Notice of Appeal to 8th Circuit Court of Appeals relQ Notice of
Appeal (SAT) (Entered: 03/09/2015)
.
/
USCA Case Number for IQ Notice of Appeal filed by William M. Windsor. USCA
Case Ndinber: 15-1565: (SAT) (Entered: 03/17/2015) , .
.
.

S

* .T

''Vivyi£.ufcU UJ..V/£. /-VI/I V.W

n ; ORto of LimitedRemand from USCA reading this case ^districtcourt fbr the

03/17/2015

liimtEdpurpose ofdetennmmg appellants IFP status and assessing the appellate filing
03/17/2013) NOtlCe ofAppea*
Wflliam M. Windsor (SAT) (Entered:
S

04/13/2015

14

05/18/2015 .

15 •

06/25/2015

IS

• ;

(AtfacfiioeiiW.#XEnvelope
momSCAtalving^^ 15 Order of limited remand as tolfl Notice of
Appeal filed hy. William M. Windsor<SAT) (Entered: 06/25/2015)
v '

i

Postmarked Envelope (6/29/15))(SAT) (Entered: 07/06/2015)

-

'

07/06/2015'
07/07/2015
08/11/2015
•«

09/03/2015
•:
09/03/2015
10/06/2016

/

,12 NOTICE of Change of Address by William M. Windsor. (Atfechments- #1

07/06/2015

No^of

IS

^Windsor re: .electronic. fiHng/service.
.;

12

“N°fc °tAtP^*“ * mmm M

20 JUDGMENT of USCA dimissing for failure to,prosecute as to IQ Notice of Appeal
filed by William M, Windsor (SAT),(Entered: 09/03/2015)
'
21 MANDATE from 8th Circuit COA issued as to Ifi Notice of Appeal filed by William
M. Windsor (SAT) (Entered: 09/03/2015)r
. ,: :'
22 NOTICE of Change of Address by William M. Windsor. (Attachments: # 2 Envelope
postmarked 10/3/16)(SKK) (Entered: 10/06/2016)

:•
:

'*

:•
•;

:•
:

?:

:■

:
:
*.
;
\

;.
.

••i

•:

• .*= •

../ ;

Appendix
G

••• :
General Docket
Eighth Circuit Court of Appeals

*:
t

•V

Court of Appeals Docket §t .15-1565
Nature of Suit: 3366 OtherPersorial.jnjury
_ ,.
William Wipd^Y^o^fejaCiffle.Kia^ V '
Appeal From: ;U.S. District Court for the DistriGt’of South Dakota *• Pierre
Fee Status: due
:

Docketed: 03/17/2015

:

'm

I"..... V ....................

;

‘‘‘I-" l-

Case Type Information: v
1) Prisoner
?) Statei ;!/;.:^y ■ ^
3) Civil Rights .

cW-i

tyVr.r
:

*

Trial Judge: Roberto Al Lange, U.S. Disfrict Judge .
Date Filed: 12/24/2Q14.,= ...
.*•: ;■ :>v •
DateOrder/Judgitientr ; ^;
' Date NOA Fiied:. •
:
:•
01/29/2015 "
03/02/2015

Prior Cases:

\

:

^ :-i

'. ^:;: ' :.0aW-Rfec,aBdA:: ..
■V' •.

03/09/201:5 •

:.-Y • •

Norie
«.

Current Cases:;
None

-

.*• -

A

William

William M. Windsor. *
■ ^ntlftrAppei^V;
••••• •<

Windsor

,vs;

•

,.j... /

v . P.O. Box 1060 ^7:;; V?:

v\

V.

Joey is a OtBieKid-:'
Defendant - AppeBee
*•- >

U:-

:

■

•

•••.

•:
:aV,:v(

.

v■■

'■'i■'"."

:

■

.

:

•

f-”' ?■ r-

-

" ■

—

.»

.

'•

•

’*

1; '

• .*

.

.

J.‘

'

..••<•

v-

•

/•?

..

l.'

K ;;M r

W-%
.y-

:

/•

-

:• .
....

,

........

..

.

• V

^v;u; ir

:
•,

•:

t
l

.03/17/2015 Qf
:•

. Prisoner base docketed: [4255061j [15-1.565] (GYZ) [Entered: 03/17/2015 09:50 AM] ,

4pg.14.9SKB'

03/17/2015 -Q.ffl-:
v. Originafing court document filed, consisting bf nbtibe of appeai, doctetdritrlesl;QrderDisriiissing
10R0.269.64KB Proceeding dated i/29/15 [4255076.] [15-1565],(eYZ)[Entered:,03/17/2015 l0:03 AW]
03/17/2015 (T|
; : - ■ -;CLERK ORDER: for liriiited remand: This case is remanded to the dislrict court for tjhe limited purpose of
• i :pg^;3SKB ’: deterthininigtheappel! ant's IFPstatus.erid assessment/af the docketingfees pursuant to 28.0SC Section
1915 as amended by PLRA.’ [42550803 [15-15651 (CYZ) [Entered::03/17/201510:05 AM] :

H

03/26/2015 Q §|
■ 3 pg, 93.32 KB

1 03/31/2015 □ M ■ai--

■■

LETTER from Appellant Mr. William M, Windsor regarding appeal fniri^^; [4260218] f15-4565] (CYZ)

-

03/31/2015 Q ffl\
............. 1 pg,7:43KB.

7

Tendered - Pro se appellant's letter received from Appellant Mr. William M. Windsor [4259161] [15-1565]
(OMS) [Entered: 03/27/201511:07 AM]'

■ CLERK LETTER seht to appeliant regarding fee. [4260252] [15-1565] (CYZ)[Entered:03/31/201512:38 :
{.PM],
"v
V/'
/■.
/ V'v V V

04/10/2015 Q H ,:■ LETTER from Appellant MrWlliamii/i. WindSorfegarding "change of address as foilows: Missoula County
2 pg,^7kB • Detention Center, 2340 Mullen Road, Missoula, MT59808; And, request for docket sheet (Docket Sheet
'sentto Mr. Windsor). [4266663] [15-1565] (DMSjpriteredLCll/ZO/MiSfOiBOAWi

% 04/14/2015. Q ,

•

'•

/■•'.

'■

v'~ : •

.

Matt sent to Appeflant Mr. William M. Windsor on 03/26/2015 was returned on 04/14/2015 . . .
: Reason Mali Retdrhed: Eiw^ope marked. Rfs/NIQ: .re-sent NDA to appellant at address provided by Mr.
5;
WirkJsOT ln his letter of 04/10/2015 [4267339] pi 5^1565] (DMS) [Entered: 04/21/2015/03^)3 PM] :

9

06/25/2015 ■ Q @
' CLERK ORDER: The order of limited remand entered March 17j 2015 is'hereby vacated; Doc No.
- •.
2 pg, 13.021® 14255080-21.. 142887851 f15-;1565NCYZV f Entered: 06/25/201511:31: AMI -■ ;./

1C

07/06/2015

W

gif .
DOCUMENT FILED - Notice of address change filed by Mo WUIiam:M. Wndsor;wfeervice 07/07/2015
6pg, 71.31® : [4292778] [15-4565r(YML) pntered: 07/07/2015 03:46 PM].:
' ' •
08/11/»t¥;'inSVl^-v<^'^c^lft^ELLANThasM^'tb-p^to'tbe.derkdf-jhe-bi^rtCmjirt.tttt/requl^te5ocketihg.'
' 1 pg,-5.2'kb
fees.. APPELLANT is directed to show cause within lA days why/this appeal shouid riot be/dismissed for
faiiure to prosecute. Response 6f-WiHiam M. Windsor due d8/25^Dl5 .[430460p] [15r1565] (CYZ) [Entered:.
. 08/11/2015 09i25 AM] '/■'/: g’QX
■ ’-S L

1) ^09/03/2015 Q @
*

0'

1 pg. 8.9KB

. Judgment, FILED- Appellant has failed, to respond to toe stow cause ordenand fad time for a cespqn.se
' has expired. This appeal is dismissed for want of prosecution. Mandate shalHssue forthwith.. [4313232]
' ; [15-156^|(JMM) [Entered::09A>3/2O1509:44AM].
• ;
> •. :'

09/03/201.5.-:• -sMANDATEISSUED/[4313239] [15-1565] (JMM)[Ent^red:;O9/63/2:0'15 09:49 AM] .
»

;

•. .

•;

*•«

■

:*
•Sv;-.

V.

" ?

. ..

•

; • •• >
i

‘ i • ‘

••

*.

.

.

r ••

■}

-:

:

. -•

;
r

:
•

;
;

:

:
•v •

D Include;Page,Numbere.

M

Selected Pages: j 0

;;

■A

.Selected Size: QKB
- -• : " V
:

•. .

’X. • .0; '-.wA'a.UA ;h'y;W,, " : . .

A'

PACER Service Center ■ Transaction Receipt -Ax-V

■ :~:f ■ ■■■

■'■A

. 8th Cirpuit Court of Appeals -06/30/2020 Q?:2i:16,
PACER Login: "bitlwindsor • •
A: ■lipocket Report (filtered)
Description:

Billable Pages:

[pi- "V V.A-.

jCIfentCoda: or:\ ••••/•••' -v •;
{Search Criteria:

;a;^: v:.;v• '•ilcdsfe-

15-1565:

•: v/^ 0.10;v: \
v:; :•

• •*. .

:

•*.

*=

. ’ y.
!■■■■

/ /:

:

>;

■

' N.. .i'?rV-!
•J

\r.

'.v‘v: ->\v
‘J.

r

’• i’

>

V-Jr

• t. .. t

:•
~

•Vi

. .•

■■

:.;i:

K ■ ’!' .<

v'

•

' v

:
■

:
■ :•
•

.

■

1

-Avr on,

*:

:j

:.^X'-,rSr^

;
■.

•:
• ;
;

-•
: •

;
-:

:

William M. Windsor

*.

:

V,-

:

:

Plaintiff - AppeBant
v.

:

Joey is a Little Kid
'

•:*)efepdant - Appellee,:
■ vs.; v/.

/ •.

i

i O

:
V

-vi

. :•

i-V

•
:

: ?;■: v.-;

; -.4:;

-V44

••

,v.

■

.>

S— «

a

•: • ••;
:•
V,';

^ :-ZvxjZ?

■.

.•

r

:

:'Cvv.:v>X:4\i;:vy

■. •.

:

:
• n}.rv''.;- »;V.

.V''' 'Vv-VS '••

...

■

•

*

•'

'

:vsK vv.
•? •

. ••

.

r/f

:•

-, •.

' .Us.. i;

- •-•

-

■■■

,v\

s-?

V

-■ V v-.;.:/A.:-.;V•■ v

;•

V V,vv;. •

v4v
■;

:

•: * • '
?

-

•.
-> i

s . (

:

’

•V •■

'•■'

'

/’

,;44

. s■

•

•

*

/

•

:

•.

■’• '■v ■ 'v'.
.• "■

V.

■ ■■

•’

’.

:
:• ■i: V; . .

:'

Appendix
H

/v 0 * $ i? ^ l \
V^/|tMA^
_

/? C/K -v' *t l

^

^~-

JJuL^i 1^-tCtt S&XzYQjgt^
1)\Zfr&sOA/si*>

(■

^7gdV
v?v^/u^ c4^r
.... ^'UUt?' C^VTl[
/-

A-of\c<g ffpg A^ViT,
IaJ \,H>- \V^r~A/Ss—- AV~ V-J \

A^_(y rflM ;v7i ffC ’')
?_\o',ir 'X-trticg ttf5Y
4-^/) 9\4<u^ g ~T'r*7^£^77lLjZ71 E?_vir 0 t~'?J:...__..

i

LybSL

FF

ia<£

"Tif-? S

V

Qj£g9

Q*€... ^tAr~C^ f)±yjZ<^X<^3lJ^k^:tCjr

yt...0^ ..i^k'jFt:. r

_.^'IF€...

__ (?.... na

T^'S-.fe^.AF1.:v ^~C ../2e^ u2zrAjcgr...
cr.#=-lzj_i7. A^dror.^y

....__ S.\JtXX>b....Gtf. Lc&.^Ft'. ..'SYl^'S

f

L-. v

Jb- V<Zr&^OA/VX$

i^

'uj'/tS y^^/ru^/w?^

jZdl <Ft>C"tg7v .... tlhgi
_ftp* T CfFt^

___ l3

UAV>ngfJ _.^Clhi__

I?-^._.|^
l-\/

---------- ^c-

L(^7Qr

___ (jsjlj.^}^.
------- U//^
---------—(Xa/ (,.=^-------------------------------

--------$fy$£s'-*Ttzf(pr’M

F

..

fcm*r¥~
ir->

___ - 7^- 2*l6.Jr_

'CCT

